R.A. 1
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT OF FLORIDA
IN AND FOR HILLSBOROUGH COUNTY
CIVIL DIVISION
ANGELA DEBOSE,

)
)
Plaintiff/Petitioner,
)
v.
)
CASE NO:
USF BOARD OF TRUSTEES, )
) 15-CA-5663 DNA
USF ACADEMIC AFFAIRS
) (Filed Jun. 22, 2015)
OF USF, STUDENT
)
SUCCESS OF USF, and
)
PAUL DOSAL,
)
Respondent.
)
PETITION FOR EXTRAORDINARY
WRIT OF MANDAMUS
COMES NOW PLAINTIFF, ANGELA DEBOSE,
pursuant to Art. I, § 24 Fla. Const.; § 119.07, et. seq.,
Fla. Stat.; and Rule 1.630, Fla. R. Civ. P., and sues Respondent, USF Board of Trustees, et al. (“USF”), for a
Writ of Mandamus compelling Respondent to provide
access to public records, and as grounds would allege:
JURISDICTION
1. This Court has jurisdiction to grant the relief
hereby sought under Art. V, § 5(b), Fla. Const.; Art. I,
§ 24, Fla. Const.; § 119.07, et. seq., Fla. Stat., and Rule
1.630, Fla. R. Civ. P.

R.A. 2
2. This is an action seeking mandamus relief, for
failure to provide access to public records, against USF
and records in possession of Paul Dosal, Vice Provost
for Student Success (“Dosal”).
3. Plaintiff, Angela DeBose, is a citizen, resident,
and employee of USF on forced professional leave until
August 19, 2015, at which time her employment will
terminate; Angela DeBose was supervised by Dosal.
FACTS
4. DeBose filed discrimination charges internally with the USF Office of Diversity, Inclusion, and
Equal Opportunity (DIEO) against Paul Dosal. Simultaneously to filing, DeBose requested in writing copies
of email that Dosal had in his possession that would
demonstrate his invidious plans against her. Other
USF employees have knowledge and can attest to the
existence of the email. Dosal acknowledged existence
of such email on June 23, 2014.
5. Respondent failed to provide the requested information.
6. In the months that followed, Dosal created a
hostile retaliatory work environment for DeBose at
USF. When Angela DeBose contacted DIEO for assistance, they were unresponsive.
7. In December 2014, Angela DeBose filed external discrimination charges against Dosal with the
U.S. Equal Employment Opportunity Commission
(“EEOC”). After she filed the EEOC complaint, Dosal

R.A. 3
became increasingly aggressive, involving others in his
invidious scheme, and retaliated against DeBose.
8. In February 2015, Angela DeBose filed a Motion for Temporary Restraining Order (TRO) with the
U.S. Middle District Court of Florida, that was subsequently converted to a Motion for Preliminary Injunction (CASE NO: 8:15-mc-18-T-EAK-MAP), set for
hearing on June 26, 2015.
9. In March 2015 and subsequent months, Angela DeBose made a public records request for specific
emails in Respondent’s possession, through their counsel of record. Initially, Respondent’s attorney indicated
the records were being compiled and would be provided
(Exhibit A). Subsequently, the Respondent requested
an unreasonable fee for production, claiming IT and
clerical services were required, to make it cost prohibitive for Plaintiff to obtain the records (Exhibit B). Respondent indicated a cost well over $4,000; at $0.15 per
email, this would approximate 26,667 email!
10. In April 2015, Angela DeBose filed a Motion
to Compel Production and a Motion for Expedited,
Limited Discovery with the Middle District of Florida,
that was referred to a Magistrate Judge. The Magistrate Judge denied Plaintiff her requested relief but indicating it was not because Angela DeBose is not
entitled to the records and also stating that she could
request them in state rather than federal court.
11. In May 2015, Plaintiff filed a Motion for Expedited Discovery for these documents prior to her upcoming hearing. The Magistrate Judge denied Plaintiff ’s

R.A. 4
motion stating that Plaintiff has not shown the need
for early discovery—given that Plaintiff is not required
to prove the underlying discrimination claim in order
for a preliminary injunction to issue.
12. In June 2015, Plaintiff requested an informal
mediation through the Office of Attorney General to
obtain the requested public records. Since Respondent
expressed the intent to continue to fight Plaintiff s inspection of these records, Plaintiff requested a single
email pursuant to a subsequent public records. Exhibit C. The request was also met with resistance until Plaintiff copied a staff with the Office of Attorney
General. However, the one document provided was not
the one requested, which as of this filing has yet to be
produced. When Plaintiff informed Respondent of this
fact, Respondent referred the matter to their Data
Custodian (Exhibit E).
13. On May 19, 2015, Respondent terminated
DeBose not for cause or for disciplinary reasons, but
at the Respondent’s “prerogative” in retaliation for her
filing discrimination charges with the EEOC. Respondent has continued to decline to provide Angela
DeBose the requested records because they evince
their discrimination and retaliation against her.
14. Respondent bears responsibility for the custody and maintenance of public records, as required
under Art. I, § 24(a), Fla. Const., and § 119.07, et. seq.,
Fla. Stat., which records Angela DeBose seeks to inspect.

R.A. 5
15. By serving a copy of this Petition upon the
State of Florida Department of Financial Services on
even date, Angela DeBose has satisfied the requirements of § 284.30, Fla. Stat.
16. DeBose verbally requested of Paul Dosal a
copy of the specific email in June 2014, which contains
false and derogatory statements against her. This request and the other written requests (“the Public
Records Request”) filed with Respondent for all public
records in Dosal’s custody or control is attached hereto
and incorporated by this reference as if fully restated
herein. Exhibit D.
17. Respondent has not provided the email records sent in and after 2014 and never produced them
to Angela DeBose in response to the Public Records Request—no matter how narrowly drawn DeBose has
made her request. Angela DeBose is concerned that
Respondent—instead of producing the requested public records—will destroy or alter them or only provide
“select” records (as done with production of the one
email—Exhibit E)—in violation of Art. I, § 24(a), Fla.
Const.; § 119.07, et. seq., Fla. Stat. and Angela
DeBose’s right to access these public records.
18. At all relevant times, Angela DeBose was informed of the existence of the emails. For example, on
June 23, 2014, Dosal stated to Angela DeBose, “you
know about the email?” Other USF employees also
know of the existence of the damaging email, certain
content of which was publicized among the USF community. Former employees of USF, who were employed

R.A. 6
at and after this time, also know of the existence of the
email.
19. Respondent’s failure to produce the email related to Dosal’s invidious plans and retaliation against
Angela DeBose violates Art. I, § 24(a), Fla. Const.;
§ 119.07, et. seq., Fla. Stat.; and Angela DeBose’s constitutional right to access public records.
20. The records Angela DeBose seeks to inspect
are public records within the meaning of Ch. 119, Fla.
Stat., as acknowledged in Defendant’s responses to her
various requests.
21. Respondents have a duty under Art. I,
§ 24(a), Fla. Const., and § 119.07, Fla. Stat., to permit
the inspection of public records.
ARGUMENT
Angela DeBose seeks to inspect certain records in
the custody of Respondents. DeBose contends that Respondents have failed to perform mandatory duties to
make public records available for inspection. Mandamus is the appropriate remedy to enforce violations of
the public records law. See Smith v. State, 696 So. 2d
814, 816 (Fla. 2d DCA 1997) (for purposes of mandamus relief under the Public Records Act, disclosure of
public records is a mandatory act). In Radford v. Brock,
914 So. 2d 1066 (Fla. 2d DCA 2006), the court outlined
the requirements for issuance of an alternative writ of
mandamus: A party petitioning for a writ of mandamus must establish a clear legal right to performance

R.A. 7
of the act requested, an indisputable legal duty, and no
adequate remedy at law. When a trial court receives a
petition for a writ of mandamus, its initial task is assessing the petition to determine whether it is facially
sufficient. If it is not facially sufficient, the court may
dismiss the petition. If the petition is facially sufficient,
the court must issue an alternative writ of mandamus
requiring the respondent to show cause why the writ
should not be issued. 914 So.2d at 1067-68 (internal citations and quotation marks omitted). See also Moore
v. Ake, 639 So. 2d 697, 698 (Fla. 2d DCA 1997) (a petitioner is not required to serve the respondent with the
complaint and could not serve the alternative writ until the trial court had performed the tasks required of
it under the rule). As will be demonstrated below,
Plaintiff has established all of the above requirements,
and an alternative writ of mandamus should issue
forthwith directing Respondents to show cause why
the requested relief should not be granted.
A. Clear Legal Right
All citizens of the State of Florida enjoy the right
to inspect public records. Indeed, this right is not only
granted by statute under § 119.07(1), Fla. Stat., but
has been elevated by the citizens of Florida to constitutional status. See Art. I, § 24(a), Fla. Const. The Florida Public Records Act was enacted to promote public
awareness and knowledge of government actions in order to ensure that governmental officials and agencies
remain accountable to the people. WFTV, Inc. v. School
Board of Seminole County, 874 So. 2d 48, 52 (Fla. 5th

R.A. 8
DCA 2004). However, “[t]he motivation of the person
seeking the records does not impact the person’s right
to see them under the Public Records Law.” Curry v.
State, 811 So. 2d 736, 742 (Fla. 4th DCA 2002). Thus,
Plaintiff ’s legal right to the relief requested could not
be more clear.
B. Mandatory Duty
As custodians of public records, Respondents have
a mandatory, non-discretionary, and statutory duty to
permit inspection of all records which are not subject
to a specific statutory exemption. Likewise, if Respondents believed that a specific statutory exemption
applied to the public records requested by Angela
DeBose, §119.07(1)(e) affords them no discretion when
mandating that they “state the basis of the exemption
that he or she contends is applicable to the record[s],
including the statutory citation to an exemption created or afforded by statute.”
In this case, and as of this filing—more than
eleven months after Angela DeBose requested access
to the public records at issue—Respondents have not
only failed to comply with their mandatory, non-discretionary duty to provide access to the requested public
records or state in writing any claimed statutory exemption to disclosure of them, they have failed to disclose even the existence of the records they have
withheld, completely ignoring the statutory mandates
of Ch. 119, Fla. Stat.

R.A. 9
C. No Adequate Remedy
Angela DeBose has no other adequate remedy at
law. Mandamus is the appropriate remedy for violations of the Public Records Law. Smith v. State, 696 So.
2d at 816.
D. Accelerated Hearing
Plaintiff is entitled to an immediate hearing under
§ 119.11(1), Fla. Stat., which provides that: Whenever
an action is filed to enforce the provisions of this chapter, the court shall set an immediate hearing, giving
the case priority over other pending cases. See Salvador v. Fennelly, 593 So. 2d 1091, 1093 (Fla. 4th DCA
1992) (rejecting agency’s suggestion that “immediate”
under § 119.11(1) meant a reasonable period of time in
the absence of an identifiable emergency); see also
Woodfaulk v. State, 935 So. 2d 1225, 1227 (Fla. 5 DCA
2006) (trial court abused its discretion in refusing immediate hearing as filing of mandamus action itself
triggered requirement that court set immediate 10
hearing under § 119.11(1)).
E. Costs
Chapter 119, Fla. Stat., makes agencies strictly liable for a Petitioner’s costs in any civil action where it
is found that the public records sought should have
been produced. See § 119.12; see also, e.g., Office of the
State Attorney for 13th Judicial Circuit of Florida v.
Gonzalez, 953 So. 2d 759, 764 (Fla. 2d DCA 2007).
Costs may be awarded under § 119.12 when (1) a court

R.A. 10
finds that the basis for withholding the requested records is improper or (2) when an agency unlawfully delays producing public records. Id.
CONCLUSION
As the legal custodians of public records, Respondent has a mandatory and non-discretionary duty to
permit the inspection of all public records. Angela
DeBose has clear statutory and constitutional rights to
inspect all public records to which no specific statutory
exemption applies, including those to which Respondent has denied her access. Art. I, § 24(a), Fla. Const.;
§ 119.07(1)(a), et seq. Fla. Stat. DeBose has no other
adequate remedy at law. DeBose seeks, and is entitled
to, an immediate hearing under § 119.11(1), Florida
Statutes. DeBose is entitled to recover all costs incurred in bringing this action under §119.12, Florida
Statutes. DeBose is entitled to, and hereby seeks, the
issuance of an alternative writ of mandamus directed
to Respondent, ordering them either to produce the requested records within 48 hours or appear and show
cause why a writ of mandamus should not issue granting the requested relief.
WHEREFORE, Angela DeBose respectfully prays
that this Court enter an Order granting the requested
relief of:
a. an alternative writ of mandamus directed to
the Respondents;
b.

setting an accelerated hearing;

R.A. 11
c. requiring Respondent to make all records
sought immediately available for inspection;
d.

awarding to her costs;

e. imposing monetary sanctions on Respondent
for their disregard of Ch. 119, Fla. Stat., which governs
Respondent’s behavior in this matter; and
f. ordering any and all such further relief that
the Court deems just and appropriate.
Respectfully,
/s/ Angela DeBose
Angela DeBose,
Plaintiff/Petitioner
1107 W. Kirby Street
Tampa, FL 33604
Phone: (813) 932-6959

[Certificate Of Service Omitted]

R.A. 12
EXHIBIT A
From:
To:
Subject:
Date:

McCreaR <McCreaR@gtlaw.com>
awdebose <awdebose@aol.com>
RE: USF Determination Letter
Fri, Mar 27, 2015 11:46 am

Ms. DeBose:
The University is in the process of compiling the requested documents.
Rich McCrea
From: Angela DeBose [mailto:awdebose@aol.com]
To: Wednesday, March 25, 2015 10:43 PM
Subject: McCrea, Rich (Shld-TPA-Labor-EmpLaw)
Date: Re: USF Determination Letter
Thank you for answering my inquiry. I look foward to
your reply concerning my request for documents as
well. AD

—Original Message—
From: McCreaR <McCreaR@gtlaw.com>
To: awdebose <awdebose@aol.com>
Sent: Wed, Mar 25, 2015 12:35 pm
Subject: RE: USF Determination Letter
Ms. DeBose:
My clients intend to oppose your motion for preliminary injunction.
Rich McCrea.

R.A. 13
From: Angela DeBose [mailto:awdebose@aol.com]
Sent: Wednesday, March 25, 2015 10:47 AM
To: McCrea, Rich (Shld-TPA-Labor-EmpLaw)
Subject: USF Determination Letter
Mr. McCrea:
Please find attached the Determination Letter from
USF. In your review, please note the statement, “Dosal
stated he had no designs to terminate DeBose . . .
hoped she continued to serve at USF.”
As the legal representative for the USF Board of Trustees, et al., does USF intend to oppose my motion for a
preliminary injunction during the 180 day period the
EEOC is investigating? If not, let me know if you be
willing to stipulate to this in writing so that I can
either refile a Second Amended Unopposed Motion for
Preliminary Injunction or Voluntarily Withdraw my
Motion for Preliminary Injunction on the basis of such
stipulation.
NOTE: This inquiry is strictly for informational purposes only. Under no circumstances do the questions,
content, or attachment presented constitute agreement, acceptance, admission, or endorsement of the report or any determinations made therein. Under no
circumstances does this inquiry concerti the truth, veracity, accuracy, reliability, credibility, dependability of
the report or the contents contained therein. The inquiry is not intended to seek or solicit legal advice.
AD

R.A. 14
EXHIBIT B
*TO BE COMPLETED BY RECORDS CUSTODIAN AND APPROVED BY REQUESTOR BEFORE ACTUAL PRODUCTION
UNIVERSITY OF SOUTH FLORIDA
PUBLIC RECORDS CHARGE DOCUMENT
(a) Description of Public Records Request (“PRR”):
See attached I.
(b)

Date of PRR: August 8, 2014

(c) Description of reference line on PRR: DEOA Investigation
2. Name, Address, Telephone Number of Public
Records requestor: Angela DeBose, (813) 974-4018
3. Name, Title, and Department of Records Custodian: Dr. Paul Dosal, Vice Provost
ESTIMATED COST OF DUPLICATION
+Request will not be processed until a signed Charge
Document is returned by mail or facsimile to:
Office of the General. Counsel
Attn: Gerard D. Solis, Deputy General Counsel
4202 E. Fowler Avenue, CGS301
Tampa, Florida 33620
Facsimile: (813) 974-5236
Telephone: (813) 974-2131
+ unless alternate arrangements have been made
Estimate (including extensive use of IT resources.
file retrieval, queries, etc.):

1 hr. x 35.00 = $35.00

R.A. 15
SEARCH FOR EMAILS
CONTAINING ANGELA
DEBOSE
07/01/13 THROUGH
03/27/15
Estimate of labor cost
2735 emails x 1 min.
(extensive clerical and / or
per email
supervisory labor):
2735 mins. + 60 mins. =
45.58 hrs.
(Review and redaction
45 hours x $95.35 =
of documents)
$4,280.75
**Estimate cost of
duplication:

2735 pages x .15 =
$410.25

Total Estimated Cost:

$4,726.00

I hereby-agree to pay the actual cost or duplication, computer processing, and labor for copies
of the public records requested and understand
that final costs may vary somewhat from the
above-indicated estimate.
Signature of Requesting Party
Estimated time for
pick-up:

Date

Review and redaction
will begin upon receipt
of payment.

Submitted to Requestor By (office):

Date

R.A. 16
ACTUAL COST OF DUPLICATION
(to be paid by requestor
before release of documents)
These charges represent the actual cost of duplication
and labor expended to produce public records in accordance with this public records request.
Actual cost of IT resources:

Actual cost of labor:
**Actual cost of duplication:
Total Actual Cost:
Total payment should be submitted with a copy of
this form directly to:
USF Cashier’s Office
4202 E. Fowler Avenue, ALN 131
Tampa, FL 33620
*The USF Cashier’s Office will deposit to auxiliary account:
Acct.
No.

Op
Fund Dept.
Unit

Product Initiative

440
00

TPA 05050 012000 GC0004

000000

and will issue a receipt upon request. Records will be
released when a receipt confirming payment is presented to the Records Custodian (unless alternate arrangements are made).
** See F.S. 119.07 copy costs (15¢ one sided copies)

R.A. 17
EXHIBIT C
From: Angela DeBose <awdebose@aol.com>
To: gsolis <gsolis@usf.edu>
Cc: pat.gleason <patgleason@myfloridalegal.com>;
mccrear <mccrear@gtlaw.com>
Subject: CHAPTER 119 – PUBLIC RECORDS
REQUEST
Date: Fri, Jun 19, 2015 9:38 am
Gerard,
Shortly after sending you the email below, I received
your out of office, which indicates that you are away
with limited access to check and respond to email. Rich
McCrea’s assistant informed me that the requested
document would not be provided until perhaps June
22, 2015, when you return to USF. I write to confirm
whether it is certain that you will be providing the record. I shared with Mr. McCrea’s assistant that USF has
a staff of internal counsel and legal assistants that
could work on your behalf to provide the requested document. However, even though Mr. McCrea (copied) is
now available following depositions, he has not responded further concerning production of this record.
Given the lack of cooperation I have received from USF
concerning production of public records, I suspect that
this may be yet another delay tactic. I understand that
you are away but hope that you will agree to expedite
provision of this document. I don’t think production
this week would have been unreasonable. If not today,

R.A. 18
please provided assurances that this document will be
released to me on Monday, June 22nd.
I have copied Pat Gleason with the Office of Attorney
General who is charged with an informal mediation
program concerning public record requests, should her
involvement prove helpful. She is aware of my discovery requests concerning the emails and the disposition
of the Magistrate Judge.
Thank you,
AD

—Original Message—
From: Angela DeBose < awdebose@aol.com>
To: gsolis < gsolis@usf.edu>; mccrear < mccrear@gtlaw.com>
Sent: Mon, Jun 15, 2015 3:31 pm
Subject: CHAPTER 119 – PUBLIC RECORDS REQUEST
Pursuant to Article I, section 24 of the Florida Constitution, and chapter 119, F.S., I am requesting a copy of
the following public records:
June 2014 email from Travis Thompson to Paul
Dosal and Bob Sullins. The email concerns
Caurie Waddell’s reason for leaving USF. The
email makes specific references to Angela
DeBose. The existence of the email was first reported on June 12, 2014. Paul Dosal acknowledged existence of the email on June 23, 2014.
Should you deny my request, or any part of the request,
please state in writing the basis for the denial,

R.A. 19
including the exact statutory citation authorizing the
denial as required by s. 119.07(1)(d), F.S.
I will contact your office within 24 hours to discuss fulfillment of my request and payment of any statutorily
prescribed fees (i.e. $0.15/fifteen cents).
If you have any questions in the interim, you may contact me via email.
Thank you,
Angela DeBose

EXHIBIT D
XXXXXXXXXXXX
UNIVERSITY OF
SOUTH FLORIDA
OFFICE OF THE REGISTRAR
University of South Florida • 4202 East Fowler
Avenue, SVC1034 • Tampa, FL 33620-6950
(813) 974-2000 • FAX (813) 974-5271 •
www.registrar.usf.edu
INTERNAL MEMORANDUM
Privileged and Confidential
DATE:

August 8, 2014

TO:

Rhonda Ferrell-Pierce
Equal Opportunity Consultant

R.A. 20
FROM:

Angela DeBose,
University Registrar

SUBJECT: DEOA Investigation
Pursuant to the complaint I have filed, I request that
Paul Dosal, Vice Provost, provide to me all email he has
in his possession of or concerning me from July 2013 to
present, to which I was not copied.
I understand that these documents cannot be immediately provided. Therefore, I ask that Paul Dosal be required to provide the entails within the next 30 days
or a reasonable time period made known to me.
/s/ Angela DeBose
Angela DeBose
University Registrar

8/8/2014
Date

From: Angela DeBose <awdebose@aol.com>
To: mccrear <mccrear@gtlaw.com>
Subject: USF Board of Trustees, et al. – Production
of Documents, Informaton, or Objects
Date: Sun, Mar 22, 2015 1:55 pm
I write in follow-up to our telephone discussion on
March 17, 2015. Please recall that am the plaintiff in
an action against USF. Specifically, my call was to inquire about the production of documents from the
University of South Florida related to Case No. 8:15MC-18-T-17MAP. As I stated, similar requests for the
documents at issue were made previously to Paul
Dosal, DIEO, and HR. You indicated that you would

R.A. 21
follow-up with your client and immediately get back
with me concerning my request. I am contacting you
again, this time via email, as I did not hear back from
you. As mentioned, I am willing to subpoena the
records below if a more formal communication is required:
THE ORIGINAL, TRUE LEGITIMATE COPIES
OF ANY AND ALL DOCUMENTS IN YOUR
CARE, CUSTODY AND CONTROL, OF EMAIL,
MEMORANDA, NOTES, REPORTS, ETC. SENT
OR RECEIVED BY ANY AND ALL OF THE
ABOVE NAMED DEFENDANTS, AND MORE
SPECIFICALLY PAUL DOSAL, IN CONNECTION WITH ANGELA DEBOSE CONCERNING THE ABOVE COMPLAINT FILED BY
PLAINTIFF
Please acknowledge receipt of my email so that I can
be sure it reached you.
AD

EXHIBIT E
From: Mohn, Lori <lmohn@usf.edu>
To: Angela DeBose <awdebose@aol.com>
Cc: pat.gleason <patgleason@myfloridalegal.com>;
Solis, Gerard D. <Solis@usf.edu>
Subject: RE: Angels Dense – Chapter 119 – PRR
Date: Fri, Jun 19, 2015 11:13 am
Dear Ms. DeBose:

R.A. 22
This is the document that was provided by the records
custodian. We will forward your email to the records
custodian for further response.
Thank you,
Lori
Angela DeBose [mailto:awdebose@aol.com]
Friday, June 19, 2015 11:02 AM
Mohn, Lori
pat.gleason@myfloridalegal.com;
Solis, Gerard D.
Subject: Re: Angela DeBose – Chapter 119 – PRR
From:
Sent:
To:
Cc:

Lori,
Thank you for your note. It is Travis’s email that initiated this escalation to Paul Dosal that I am requesting.
It contains false statements about me and this email
was sh Dosal, Bob Sullins, and others in the USF Community. Please forward.
AD

– Original Message –
From: Mohn, Lori <lmohn@usf.edu>
To: “awdebose@aol.com” <awdebose@aol.com>
Cc: “patgleason@myfloridalegal.com”
<patgleason@myfloridalegal.com>; Solis, Gerard D.
<GSolis@usf.edu>
Sent: Fri, Jun 19, 2015 10:42 am
Subject: Angela DeBose – Chapter 119 – PRR
Dear Ms. DeBose:

R.A. 23
Attached in response to your June 15, 215 public records
request, is a copy of a June 6, 2014 email from Dean
Sullins to Paul Dosal and Tra regarding Caurie Waddell.
Sincerely,
/s/ Lori
Lori Mohn McNenney
Legal Administrative Specialist
for Gerard D. Solis
Deputy General Counsel
and Luisette “Liz” Gierbolini
Associate General Counsel
Office of the General Counsel
University of South Florida
4202 E. Fowler Avenue, CGS301
Tampa, Florida 33620-4301
(813) 974-1679 Telephone

Deen, Brooke
From:
Sent:
To:
Cc:
Subject:

Sullins, Robert
Friday, June 06, 2014 4:52 PM
Dosal, Paul (Provost Office)
Thompson, Travis
Caurie

I just heard that Angela’s tirades have driven Caurie
to resign! We should everything we can to head that
off ! She understands the details of what is needed
and what can be done with tracking almost more than
anyone else!!!

R.A. 24
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT IN AND
FOR HILLSBOROUGH COUNTY, FLORIDA
CIRCUIT CIVIL DIVISION
ANGELA DEBOSE,
Petitioner-Plaintiff,
v.

CASE NO.
15-CA-005663

UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES,
Respondent.

DIVISION: C
/

ORDER SETTING EVIDENTIARY HEARING
For Petition for Writ of Mandamus
(Filed Feb. 24, 2018)
The Court has determined this case requires an
evidentiary hearing on the captioned matter. Accordingly, to have an orderly, fair, and efficient presentation
and resolution, the Court ORDERS AS FOLLOWS:
1. Hearing Date. The Court hereby sets this
case for an evidentiary hearing before the Honorable
Elizabeth G. Rice, Edgecomb Courthouse, 800 East
Twiggs Street, Tampa, FL 33602, hearing room #504,
on Friday, March 2, 2018, at 9:00 a.m. Counsel for
the parties are to prepare for and attend an evidentiary hearing on the captioned matter on the date and
time indicated above.

R.A. 25
2. Pre-Hearing Conference. No less than five
days before the evidentiary hearing, the parties shall
conduct a pre-hearing conference in person unless all
parties agree in writing that this requirement has
been met without the need for in-person meeting. The
parties will fully disclose all expected evidence other
than true impeachment evidence. Five days before the
conference the parties shall exchange exhibits and witness lists. Witness lists shall contain summaries of anticipated testimony sufficient to fairly afford notice of
the substance of the party’s expected testimony. At the
conference the parties shall stipulate to any undisputed material facts, and shall either stipulate to the
admissibility of each listed document or state with
specificity the objections to it. Similarly, each party
must state with specificity any objections it reasonably
anticipates raising against proposed testimony.
3. Waiver of Objections. A party waives objections to other parties’ disclosed evidence by failing to
make a specific objection to it at the time of the prehearing conference. In particular, a party may effectively waive any and all objections to a document or to
proposed testimony by making a vague or blanket objection (such as objections using the term “any and
all”).
4. Pre-Hearing Conference Report. The moving party shall prepare a Joint Preheating Conference
Report and reach agreement on its language with all
other parties. The report shall be filed through the portal, with a copy and emailed to the Court’s Division “C”
address (circivdivc@fljud13.org), no less than two full

R.A. 26
business days before the hearing. If the parties cannot
agree on the language they shall endeavor to call the
matter up on the court’s next UMC calendar without
regard to coordinating the schedules of counsel. The report shall state the specific relief sought by each party,
and contain any stipulations, the witness lists and objections thereto, and the document lists, with objections or stipulations to each item.
5. Consequences of Failure to Disclose. The
Court may exclude evidence that could reasonably
have been anticipated at the time of the prehearing
conference and not disclosed in the prehearing conference report. Other undisclosed evidence will be considered on its merits to avoid unfair surprise. Note,
however, that the Court may permit previously undisclosed impeachment evidence to be presented if it
tends to show a party has deliberately testified untruthfully.
DONE and ORDERED:

February 24 2018

/s/ Elizabeth G. Rice
ELIZABETH G. RICE
Circuit Judge
[Service Notice Omitted]

.

R.A. 27
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT IN AND
FOR HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff/Petitioner,
v.
USF BOARD OF TRUSTEES,
USF ACADEMIC AFFAIRS OF
USF, STUDENT SUCCESS OF
USF, and PAUL DOSAL,

CASE NO.
15-CA-005663
DIVISION: C

Defendants/Respondents. /
ORDER CONTINUING EVIDENTIARY
HEARING ON AMENDED PETITION
FOR WRIT OF MANDAMUS
(Filed May 15, 2018)
THIS CAUSE came on for hearing before the
Court on March 2, 2018. The Court having reviewed
the file, and being otherwise fully advised in the premises, it is ORDERED as follows:
1. The evidentiary hearing on the Amended Petition for Writ of Mandamus is continued to June 22,
2018 at 9:00 A.M.
2. The hearing will address the following issues:
(a) whether the respondent has failed to produce certain public records requested by petitioner and, as a
subpart of this issue, whether any production of such

R.A. 28
records was untimely; and (b) whether the costs requested by respondent for production of certain requested public records are reasonable.
3. Discovery is permitted solely with respect to
the two issues delineated above.
4. Petitioner may depose Ralph Wilcox at a time
convenient to all parties for (2) hours upon thirty (30)
days’ notice. Petitioner may not Judy Genshaft. Petitioner may not depose Paul Dosal without leave of
Court.
5. Conditioned upon payment of statutorily-required witness fees, petitioner may subpoena the following individuals for the June 22 evidentiary hearing:
a.

Paul Dosal;

b.

Ralph Wilcox;

c.

Robert “Bob” Sullins;

d.

Gerard Solis;

e.

Caurie Waddell;

f.

Travis Thompson;

g.

Carrie Garcia;

h.

Sidney Fernandes;

i.

Sarah Thomas;

j.

Brian Allman;

k.

Rolanda Lewis;

l.

Jennifer Derushia; and

m.

Lori Mohn-McNenney

R.A. 29
6. In addition to the individuals listed above, Respondent intends to call Nora Santiago for the June 22
evidentiary hearing.
7. In addition to the individuals listed above, Petitioner intends to call the following witnesses identified on her witness list: Tony Embry, Bea Smith, Lisa
Hendrickson, Jeffery Cohn, and Cheryl Harris.
8. Any party who intends to amend to add to the
witnesses listed above for the June 22, 2018 evidentiary hearing must seek leave from the Court, and only
upon the showing of good cause, will be permitted to do
so.
9. Petitioner must amend her List of Public Records Requested but Responses Not Provided (the
“List”) to include her June 23, 2014 oral request to Paul
Dosal to Public Records Request No. 1 and add Public
Request No. 9, [Amended Petition for Writ of Mandamus, Composite Exhibit B, p. 12].
10. Petitioner must file her Amended List by
March 9, 2018.
11. Respondent must file its response to Petitioner’s Amended List by March 16, 2018.
12. The only public records requests that the
Court will entertain at the June 22, 2018 hearing are
limited to those included in the Amended List.

R.A. 30
DONE AND ORDERED in Chambers at Tampa,
Hillsborough County, Florida this 14th day of May,
2018.
/s/ Elizabeth G. Rice
HONORABLE
ELIZABETH G. RICE
CIRCUIT COURT JUDGE
[Service Notice Omitted]

R.A. 31
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT IN AND
FOR HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff/Petitioner,
v.
USF BOARD OF TRUSTEES,
USF ACADEMIC AFFAIRS OF
USF, STUDENT SUCCESS OF
USF, and PAUL DOSAL,

CASE NO.
15-CA-005663
DIVISION: C

Defendants/Respondents. /
ORDER CONTINUING EVIDENTIARY HEARING
(Filed Aug. 16, 2018)
THIS CAUSE came on for hearing before the
Court on June 22, 2018 on Petitioner’s Amended Petition for Writ of Mandamus, Petitioner’s Motion to
Cancel Evidentiary Hearing and Petitioner’s Expedited Motion to Modify Order on Petitioner’s Motion for
Sanctions and Default Judgment. The Court having reviewed the file, having heard argument from both parties, and having otherwise been duly advised in the
premises, it is hereby ORDERED that: as follows:
[EGR]
1. The evidentiary hearing on the Amended Petition for Writ of Mandamus is continued until October
9, 2018, [EGR] and November 2, 2018.

R.A. 32
2. The issues addressed in the Amended Petition
for Writ of Mandamus have been bifurcated as follows:
a. On October 9, 2018, commencing at 2:30
P.M., the Court will conduct an evidentiary hearing to
address the reasonableness of fees charged in response
to Petitioner’s Public Records Request Nos. 5-14 and
21, as delineated in Petitioner’s Amended List of Public
Records Requested but Not Provided by Respondent
University of South Florida Board of Trustees, filed on
April 9, 2018.
b. On November 2, 2018, commencing at
9:00 A.M., the Court will conduct an evidentiary hearing addressing the remaining disputed issues, specifically, Petitioner’s Public Records Request Nos. 1-4, 1520, and 22-23 as delineated in Petitioner’s Amended
List of Public Records Requested but Not Provided by
Respondent University of South Florida Board of Trustees, filed on April 9, 2018.
3. All witness subpoenas are continued until November 2, 2018.
4. Petitioner and Respondent must file and serve
[EGR] their witness lists and exhibit lists for the October 9, 2018, [EGR] evidentiary hearing on or before
September 10, 2018.
5. Petitioner and Respondent must file and serve
[EGR] their witness lists and exhibit lists for the November 2, 2018 evidentiary hearing on or before October 3, 2018.

R.A. 33
6. Petitioner may depose Provost Ralph Wilcox
(“Provost Wilcox”) within 30 days of June 22, 2018: as
follows: [EGR]
a. Respondent must provide Petitioner with
5 possible dates for the deposition of Provost Wilcox.
b. During the deposition, Respondent shall
explain all objections to form.
c. Petitioner may inquire into the written
Public Records Requests Nos. 1-11 attached to her Second Amended Petition for Writ of Mandamus; any
other issues are outside of the scope of this litigation
and shall not be inquired into.
d. With respect to No. 1 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, the operative
time period is July of 2013 through May of 2015 and
all deposition questions should be confined to such
time period. [EGR]
e. With respect to No. 2 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
about the one email that DeBose requested on June 23,
2014 as described in “Public Records Request No. 1” in
Petitioner’s Composite Exhibit “B.” [EGR]
f. With respect to No. 3 in Petitioner’s
Amended List of Public Records Requested but Not

R.A. 34
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall not ask Provost Wilcox about documents he received from anyone other than Paul Dosal and shall
only inquire about the one email that DeBose requested on June 23, 2014 as described in “Public Records Request No. 1” in Petitioner’s Composite Exhibit
“B.” [EGR]
g. With respect to No. 4 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
regarding documents he received from Paul Dosal regarding the written requests attached to the Second
Amended Petition for Writ of Mandamus as Composite
Ex. “B.” [EGR]
h. With respect to No. 15 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge of
any emails in which Travis Thompson discusses “working with Paul Dosal to get ‘AD’ fired,” as reflected in
Public Records Request No. 3. [EGR]
i. With respect to No. 16 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge of

R.A. 35
Caurie Waddell’s Exit Interview Form and related documents. [EGR]
j. With respect to No. 17 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
regarding any documents pertaining to Caurie
Waddell’s reasons for leaving USF, and all such questions must relate to Public Records Request No. 5 attached to Petitioner’s Second Amended Petitioner for
Writ of Mandamus. [EGR]
k. With respect to No. 18 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
about Caurie Waddell’s departure from USF, and all
such questions must relate to Public Records Request
No. 5 attached to Petitioner’s Second Amended Petitioner for Writ of Mandamus. [EGR]
l. With respect to No. 19 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
about any findings or reports transmitted from HR to
Paul Dosal and others concerning Caurie Waddell, and
all such questions shall relate to Public Records

R.A. 36
Request No. 5 attached to Petitioner’s Second
Amended Petitioner for Writ of Mandamus. [EGR]
m. With respect to No. 20 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
about Public Records Request No. 6, and all such questions shall be limited to June 2014. [EGR]
n. With respect to No. 22 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
relating to Public Records Request No. 9 attached to
Petitioner’s Second Amended Petition for Writ of Mandamus. and [EGR]
o. With respect to No. 23 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge of
Public Records Request No 11.
7. The deadline for deposing Provost Ralph Wilcox may be extended by further order of this court for
good cause shown. [EGR]

R.A. 37
DONE AND ORDERED in Chambers at Tampa,
Hillsborough County, Florida, this ___ day of July,
2018. August 16, 2018. [EGR]
/s/ Elizabeth G. Rice
HONORABLE
ELIZABETH G. RICE
CIRCUIT COURT JUDGE
[Service Notice Omitted]

R.A. 38
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT OF FLORIDA
IN AND FOR HILLSBOROUGH COUNTY
CIRCUIT CIVIL DIVISION
ANGELA DEBOSE,
Petitioner,
v.
UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES,
Respondent.

)
)
)
)
)
)
)
)
/

CASE NO.
15-CA-005663
DIVISION: C

PETITIONER’S NOTICE OF APPEAL
(Filed Feb. 16, 2020)
NOTICE IS HEREBY GIVEN that Petitioner
Angela DeBose appeals to the Florida Second District
Court of Appeal from the January 17, 2020 Order
denying Amended Petition for Writ of Mandamus (Exhibit A). Additionally, Petitioner appeals the following
orders: December 11, 2019 Order Denying Motion for
Extension of Time (Exhibit B); November 27, 2019 Order Denying Motion for Jury Trial, Setting Jury Trial,
and Pretrial Conference (Exhibit C); Order Denying
Emergency Motion for Reconsideration of Order Denying Recusal of Presiding Judge and Protection form
Hearing Date (Exhibit D); November 14, 2019 Order
Denying Time-Sensitive Motion for Recusal of Presiding Judge and Protection from Hearing Date (Exhibit
E); Order Denying Motion for Mistrial or New Trial

R.A. 39
(Exhibit F); January 11, 2019 Order Denying Second
Amended Petition, In Part (Exhibit G); January 31,
2019 Order Denying Motion for Reconsideration of
Order Denying Second Amended Petition, In Part (Exhibit H); August 24, 2018 Order Denying Second Request for the Presiding Judge to Immediately Step
Aside (Exhibit I); August 16, 2018 Order Denying Motion for Sanctions (Exhibit J); Rulings in the August
16, 2018 Order Continuing Evidentiary Hearing (Exhibit K); August 16, 2018 Order on Motion for Sanctions and Default Judgment (Exhibit L); July 20, 2018
Order Denying Reconsideration (Exhibit M); May 14,
2018 Order Denying in Part and Granting in Part Motion to Compel (Exhibit N); May 15, 2018 Order Continuing Evidentiary Hearing On Amended Petition for
Writ of Mandamus (Exhibit O)1; Order Granting in
Part and Denying in Part Protective Order (Exhibit P);
and February 9, 2018 Order Denying Motion for

1

The May 15, 2018 Order was not served electronically
through JAWS. The Order is redacted in the Court file. Therefore,
Petitioner will obtain and file a signed conformed copy of the
Order with an amended NOA or supplement.

R.A. 40
Summary Judgment (Exhibit Q). Conformed copies of
the orders are attached hereto.2
Respectfully submitted,
/s/ Angela DeBose
Angela DeBose, Petitioner
1107 W. Kirby Street
Tampa, Florida 33604
Telephone: (813) 932-6959
Email: awdebose@aol.com

[Certificate Of Service Omitted]

2

See ftn. 1.

R.A. 41
EXHIBIT A
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Petitioner/Plaintiff,
CASE NO.:
15-CA-005663
DIVISION: C

v.
UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES, UNIVERSITY
OF SOUTH FLORIDA
ACADEMIC AFFAIRS OF
USF, STUDENT SUCCESS
OF USF, and PAUL DOSAL,
Respondent/Defendant.

/

FINAL ORDER DENYING SECOND AMENDED
PETITION FOR WRIT OF MANDAMUS
THIS CASE last came before the Court on November 15, 2019, for the final segment of the final evidentiary hearing on Petitioner, ANGELA DEBOSE’s
(“Petitioner”) Second Amended Petition for Writ of
Mandamus and for Violation of the Florida Public Records Law and Relief Pursuant to Article 1, Section 24
of the Florida Constitution and Chapter 119 and
Chapter 86, filed on June 30, 2018 (“Second Amended
Petition” or “Petition”), against Respondents, UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES
(“USF”), UNIVERSITY OF SOUTH FLORIDA ACADEMIC AFFAIRS OF USF (“USF AF”), STUDENT

R.A. 42
SUCCESS OF USF (“USF SS”), and PAUL DOSAL
(“Dosal”) (USF, USF AF, and USF SS sometimes may
be referred to hereinafter collectively as “USF”). USF
filed a Response to Second Amended Petition for Writ of
Mandamus on July 20, 2018.
This case involves a variety of Public Records
Requests (“PRR”) made by Petitioner on USF directly
or through various USF employees and her corresponding allegations that USF did not comply with
its obligations under the Public Records Law found in
Chapter 119, Florida Statutes. A multitude of evidentiary hearings were devoted to the initially filed
petition and subsequently filed amendments. Those
hearing dates (and the approximate length of each
hearing) included March 2, 2018 (nearly four hours),
June 28, 2018 (nearly six hours), October 9, 2018
(nearly six hours), November 2, 2018 (nearly eight
hours), April 3, 2019 (nearly three hours), May 21, 2019
(nearly one hour), May 22, 2019 (nearly two hours),
and November 15, 2019 (nearly one hour). After eight
separate hearing dates devoted to the evidentiary
hearing on Petitioner’s initial petition, amended petition, and Second Amended Petition, and more than
thirty hours of combined evidentiary hearing time over
the course’ of this case, the final segment of the final
evidentiary hearing was held on November 15, 2019.
Petitioner and counsel for USF were present at the
March 2, 2018, June 28, 2018, October 9, 2018, November 2, 2018, April 3, 2019, May 21, 2019, and May
22, 2019, hearings. Petitioner declined and failed to

R.A. 43
appear at the November 15, 2019, hearing, however,
and only counsel for USF appeared.1
To again provide the parties one final opportunity
to present argument to the Court, if they so desired,
the Court entered an Order on the Procedure and
Deadlines for Submitting Proposed Orders on Petitioner’s Amended Petition for Writ of Mandamus on December 4, 2019. That order provided the parties until
December 13, 2019, to submit to the Court for consideration, if they so choose, written closing arguments,
as well as written findings of fact and conclusions of
law.2 On December 13, 2019, Petitioner filed Closing
Argument and USF filed Respondent USF Board of
1

The Court notes that after having all other efforts to delay
or cancel the final evidentiary hearing fail, Petitioner chose to voluntarily absent herself from the final evidentiary hearing which
was held as scheduled on November 15, 2019. At the beginning of
the November 15, 2019, hearing, the Court undertook additional
efforts to offer Petitioner the opportunity to appear telephonically
at the final evidentiary hearing by attempting to reach Petitioner
on the telephone in open court. However, after trying all of Petitioner’s known telephone numbers, and receiving no response
from Petitioner, the hearing proceeded as scheduled.
2
The Court notes that despite having announced in open
court at the conclusion of the November 15, 2019, hearing that
the deadline for these submissions would be December 6, 2019, in
its December 4, 2019, order, the Court gratuitously extended the
deadline to December 13, 2019, allowing the parties an additional
week to submit its arguments and proposed orders. Despite this
additional opportunity to present final arguments, and on an extended deadline, Petitioner filed a Motion for Extension of Time,
seeking an additional 60 days, among other veiled complaints regarding the November 15, 2019, hearing and the Court’s overall
handling of the proceedings. That request was denied on December 11, 2019.

R.A. 44
Trustees’ Closing Argument. That same day, USF also
submitted to the Court via its divisional email address,
with copy to Petitioner, Respondent’s Proposed Findings of Fact and Conclusions of Law. On December 14,
2019, Petitioner filed Petitioner’s Proposed Findings of
Fact and Conclusions of Law.3
The Court has reviewed the voluminous record,
including the transcripts of the several evidentiary
hearings, as well as the testimony and documentary
evidence presented by the parties; has considered the
argument of Petitioner and counsel for USF; and has
considered the applicable case law, statutes, and rules
of procedure. With regard to the testimony of the witnesses presented, the Court observed the demeanor of
each witness and assessed the credibility of each witness. Given the forgoing, the Court makes the following findings of fact and conclusions of law:
Relevant Procedural History
The Court finds it unnecessary to recite the entire,
quite voluminous procedural history of this case. In
relevant part, the Court notes that the operative pleading is the Second Amended Petition, which was filed
on June 30, 2018. With respect to that pleading, on August 16, 2018, the Court entered an Order Continuing
3

The Court additionally notes that both parties, with copies
to each other, also submitted via email to the Court’s divisional
email its closing arguments and proposed orders. A copy of the
hearing transcripts was also hand-delivered to the Court’s chambers.

R.A. 45
Evidentiary Hearing. ‘That order outlined the process
by which the Court would hear and resolve the pending issues. In pertinent part, the order provided that
the issues presented in the Petition were to be bifurcated. On October 9, 2018, the Court would conduct an
evidentiary hearing to address the reasonableness of
fees charged in response to Petitioner’s Public Records
Requested But Not Provided (“PRRBNP”) Numbers 514 and 21.4 Thereafter, on November 2, 2018, the Court
would conduct an evidentiary hearing to address the
remaining disputed issues, specifically PRRBNP Numbers 1 through 4, 15 through 20, 22, and 23.
Following the October 9, 2018, hearing on the reasonableness of fees, on January 11, 2019, the Court entered an Order Denying Second Amended Petition, In
Part. That order addressed the bifurcated issue of the
reasonableness of charges for producing documents in
response to various public records requests made by
Petitioner to USF. Among the other findings of fact and
conclusions of law in that order, notably, the Court
found that the total estimated costs of duplication, processing, labor, and production reflected in four separate
charge documents were reasonable. Therefore, because
4

The Court notes that the numbering for each request follows that which was provided in Petitioner’s January 17, 2018,
Notice of Filing of the List of Public Records Requested But Responses Not Provided. That document lists 21 Public Records Requested But Not Provided (“PRRBNP”) that Petitioner claimed
were at issue. On March 8, 2018, Petitioner filed a Notice of Filing
of the Amended List of Public Records Requested But Responses
Not Provided. (emphasis added). This document added one additional request-PRRBNP 22.

R.A. 46
Petitioner had not paid the reasonable costs associated
with obtaining the documents she requested, the Court
denied Petitioner’s Second Amended Petition in part,
as to PRRBNP Numbers 5 through 14, and 21 (otherwise identified as the August 12, 2015, PRR; the August 16, 2015, PRR; and the August 31, 2015, PRR). As
a result of the Court’s January 11, 2019, order, the remaining PRRBNPs to be addressed included 1 through
4, 15 through 20, 22, and 23.
The remaining PRRBNPs have been addressed
over the course of multiple evidentiary hearings on
March 2, 2018, June 28, 2018, November 2, 2018, April
3, 2019, May 21, 2019, May 22, 2019, and November 15,
2019. The final segment of the evidentiary hearing in
this matter was held on November 15, 2019. This order
follows to address the remaining PRRBNP Numbers 1
through 4, 15 through 20, 22, and 23.
Findings of Fact
There is no dispute that USF is a state agency subject to Chapter 119, Florida Statutes.5 The Court will
address each of the remaining Public Records Requested But Not Provided below.

5

USF did dispute and assert an affirmative defense contending USF AF, USF SS, and Dosal are not an “agency” within the
meaning of Chapter 119, Florida Statutes. The Court agrees with
this legal contention.

R.A. 47
Public Records Requested But Not Provided
No. 1
Public Records Requested But Not Provided No. 1
seeks “[a]ny and all Paul Dosal’s emails for the months
of March, April, and May of 2015.” PRRBNP No. 1 corresponds to PRR No. 4, which was an August 8, 2014,
“Internal Memorandum” from Petitioner to Rhonda
Ferrell-Pierce, Equal Opportunity Consultant.6 PRR
No. 4 requested that “[p]ursuant to the complaint [Petitioner has] filed, [Petitioner requests] Paul Dosal,
Vice Provost, provide to [Petitioner] all email he has in
his possession of or concerning me from July 2013 to
present, to which [Petitioner] was not copied.”
With respect to PRRBNP No. 1, the Court first
finds that the Internal Memorandum was not styled as
a public records request under Chapter 119, but rather
was submitted “[p]ursuant to the complaint [Petitioner] filed.” Be that as it may, the Court further finds
that the testimony of Gerard Solis (“Solis”), USF’s General Counsel, revealed that USF could not produce the
requested documents during the pendency of the internal investigation regarding Petitioner’s discrimination
complaint. T. 11/2/18 p. 288; see also § 119.071(2)(g),
(k), Fla. Stat. (2007). Petitioner’s PRR No. 4 came to
Solis’ attention in March of 2015, after Petitioner had
already filed a federal lawsuit against USF related to
her discrimination claims. T. 11/2/18 p. 238-39, 286. Because Petitioner’s PRR No. 4 requested documents
6

The eleven Public Records Requests at issue in this case
were introduced into evidence as Petitioner’s Exhibit 54.

R.A. 48
from July 2013 to “present,” Solis explained that the
date of March 27, 2015, was used to define the term
“present.” T. 11/2/18 p. 288-89. Based on that date
range, a Charge Document for PRR No. 4 in the amount
of $4,726.00 was sent to Petitioner on April 22. 2015.7
USF Exhibit 13. Petitioner never paid the charges associated with PRR No. 4. T. 11/2/18 p. 291.
Solis further testified that during his deposition in
September 2015, USF learned that Petitioner would
accept the results of a keyword search of her name rather than requiring USF to undertake a search of all
emails “concerning her.” T. 11/2/18 p. 291. Petitioner
served as USF’s Registrar during the majority of the
time period covered by the request. Thus, she likely
would have been included or copied in a great number
of emails (i.e., regarding students) totally unrelated to
the reasons and purpose for which Petitioner was making the request. USF subsequently provided responsive emails to Petitioner on September 10, 2015. USF
Exhibit 43. Given the forgoing, the Court finds that after receiving Petitioner’s PRR No. 4, USF presented
Petitioner with a Charge Document which Petitioner
needed to pay in order to obtain copies of the requested, responsive documents. However, Petitioner
chose not to pay the charged amount. See Fla. Agency
for Health Care Admin. v. Zuckerman Spaeder, LLC,
221 So.3d 1260, 1264 (Fla. 1st DCA 2017) (“A person
who has not paid for the cost of production is not
7

The Court notes that it already determined that amounts
charged associated with Petitioner’s requests were reasonable.
See January 11, 2019, order.

R.A. 49
entitled to mandamus relief in a public records request.”). Sometime later, after learning that Petitioner
would accept a narrowed, keyword search, USF produced such responsive documents. As such, the Court
finds no unjustifiable delay by USF in producing the
public records that were requested. See Promenade D
LLC v. Sundy, 145 So. 3d 980, 983 (Fla. 1st DCA 2014)
(“Unjustified delay in making non-exempt public records available violates Florida’s public records law.”)
(emphasis in original). The Court finds Petitioner is
not entitled to mandamus relief with respect to
PRRBNP No. 1.
Public Records Requested But Not Provided
No. 2
Public Records Requested But Not Provided No. 2
seeks “[a]ny and all documents (emails, letter, memoranda, etc.) from January 2014 to June 2015 that refer
to Angela DeBose, the plaintiff in this action, in a derogatory manner, where derogatory means hurtful,
harmful, offensive, degrading, insulting way.”
No evidence was presented that Petitioner ever
made a public records request seeking the records articulated in PRRBNP No. 2. Further, there was no evidence presented that USF received any such request,
or that such records even exist. Therefore, given the
testimony and evidence adduced at the evidentiary
hearings, the Court finds that Petitioner has failed to
meet her burden of proof regarding the documents requested in PRRBNP No. 2. See O’Boyle v. Town of Gulf

R.A. 50
Stream, 257 So. 3d 1036, 1040 (Fla. 4th DCA 2018) (“To
set forth a cause of action under the Act, a party must
‘prove they made a specific request for public records,
the [state agency] received it, the requested public records exist, and the [state agency] improperly refused
to produce them in a timely manner.’ ”) (quoting Grapski v. City of Alachua, 31 So. 3d 193, 196 (Fla. 1st DCA
2010)). The Court finds Petitioner is not entitled to
mandamus relief with respect to PRRBNP No. 2.
Public Records Requested But Not Provided
No. 3
Public Records Requested But Not Provided No. 3
seeks “[a]ny and all documents (emails, letter, memoranda, etc.) from January 2014 to June 2015 that use
racial/gender (i.e. racial or sexist insulting or disparaging language) or other slurs to refer to Angela DeBose,
the plaintiff in this action.”
No evidence was presented that Petitioner ever
made a public records request seeking the records articulated in PRRBNP No. 3. Further, there was no evidence presented that USF received any such request,
or that such records even exist. Therefore, given the
testimony and evidence adduced at the evidentiary
hearings, the Court finds that Petitioner has failed to
meet her burden of proof regarding the documents requested in PRRBNP No. 3. See O’Boyle, 257 So. 3d at
1040. The Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No. 3.

R.A. 51
Public Records Requested But Not Provided
No. 4
Public Records Requested But Not Provided No. 4
seeks “[a]ny and all documents (emails, letter, memoranda, etc.) from January 2014 to June 2015 that refer
to the race-gender of Angela DeBose, the plaintiff in
this action.”
No evidence was presented that Petitioner ever
made a public records request seelcing the records articulated in PRRBNP No. 4. Further, there was no evidence presented that USF received any such request,
or that such records even exist. Therefore, given the
testimony and evidence adduced at the evidentiary
hearings, the Court fmds that Petitioner has failed to
meet her burden of proof regarding the documents requested in PRRBNP No. 4. See O’Boyle, 257 So. 3d at
1040. The Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No. 4.
Public Records Requested But Not Provided
No. 15
Public Records Requested But Not Provided No.
15 seeks “[a]ny public records created, received, held,
or maintained by USFBOT in which in [sic] Travis
Thompson discusses working with Paul Dosal and/or
Bob Sullins to get ‘AD’ fired. Provide emails referring
to Plaintiff Angela DeBose in any case form (lower,
upper, mixed case) as noted above item D – Definitions and Instructions in the possession, custody, or
control of the USFBOT. Provide if ‘fired,’ ‘removed,’

R.A. 52
‘eliminated,’ or ‘terminated’ is used in this context. Provide emails if ‘Paul’ or ‘Dosal’ is used, whether or not
others are also included in the copy.”
PRRBNP No. 15 corresponds to PRR No. 3, which
was an August 31, 2015, email from Petitioner to Solis
with the subject “Travis Thompson Email.” Petitioner’s
Exhibit 54. In the body of the email, Petitioner requests “specific email(s) from Travis Thompson that
closely aligns to or matches the following description.”
Petitioner provided the following limiting description:
“Statement from Travis Thompson wherein he states
that he is working with Paul Dosal to get ‘AD’ fired.”
Petitioner additionally requested such responsive emails
that contained certain keywords such as “Angela,”
“DeBose,” “fired,” “terminated,” “Paul,” and “Dosal,”
among other related terms. Finally, Petitioner stated
that this email was a public records request.
No evidence was presented that the requested documents exist. Indeed, Solis testified that he informed
Petitioner that USF had not found any documents responsive to this request. USF Exhibit 44; T. 4/3/19 p.
42-43. Therefore, given the testimony and evidence adduced at the evidentiary hearings, the Court finds that
Petitioner has failed to meet her burden of proof in establishing that the records requested in PRRBNP No.
15 in fact exist. See O’Boyle, 257 So. 3d at 1040. The
Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No. 15.

R.A. 53
Public Records Requested But Not Provided
Nos. 16, 17, 18, and 19
Public Records Requested But Not Provided No.
16 seeks “Caurie Waddell’s Exit Interview and related
documents.” PRRBNP No. 17 seeks “[a]ny and all documents received by USF Htunan Resources CHR’)
from Paul Dosal to investigate Caurie Waddell’s reasons for leaving USF.” PRRBNP No. 18 seeks “[a]ny
and all documents received or sent, to or from other
parties (e.g. emails from Travis Thompson, Bob Sullins, Sara Thomas, or Paul Dosal, etc.) about Caurie
Waddell or her departure from USF in 2014.” PRRBNP
No. 19 seeks “[a]ny reports or findings from HR to Paul
Dosal and others concerning Caurie Waddell.”
PRRBNP Nos. 16, 17, 18, and 19 correspond to two
of Petitioner’s public records requests. First, PRR No.
5 was an August 5, 2015, email from Petitioner to Solis
with the subject “CHAPTER 119 – PUBLIC RECORDS REQUEST.” In the body of that email, Petitioner
sought the following:
Caurie Waddell’s Exit Interview and Related
documents, including any and all documents
received by HR from Paul Dosal to investigate
Caurie Waddell’s reasons for leaving USF; any
and all documents received from or pertaining
to other parties, including emails from Travis
Thompson, Bob Sullins, or Paul Dosal; and
any reports or findings from HR to Paul Dosal,
et al., concerning Caurie Waddell.
Petitioner’s Exhibit 54. Second, PRR No. 1 was a June
15, 2015, email from Petitioner to Solis with the subject

R.A. 54
“CHAPTER 119 – PUBLIC RECORDS REQUEST.” In
the body of that email, Petitioner sought the following:
June 2014 email from Travis Thompson to
Paul Dosal and Bub Sullins. The email concerns Caurie Waddell’s reason for leaving
USF. The email makes specific references to
Angela DeBose. The existence of the email
was first reported on June 12, 2014. Paul
Dosal acknowledged existence of the email on
June 23, 2014.
Petitioner’s Exhibit 54.
Other than a Departmental Exit Process List, no
evidence was presented that any other documents exist which are responsive to this request. USF Exhibit
52. The evidence established that on August 11, 2015,
USF produced Caurie Waddell’s entire personnel file to
Petitioner, including the Departmental Exit Process
List. USF Exhibit 23. With regard to email(s) from
Travis Thompson, Dosal testified that on June 23,
2014, Petitioner asked Dosal for a single email sent by
Travis Thompson. T. 11/2/18 p. 78-79. Dosal testified
that he told Petitioner such email did not exist. Id.
Moreover, Dosal testified that he does not consider oral
requests from co-workers to be the equivalent of a public records request. Id. Additionally, Solis testified that
he received PRR No. 1 in mid-June 2015. T. 4/3/19 p.
43. No evidence was presented that the specific email
requested in PRR No. 1 actually exists. Therefore,
given the testimony and evidence adduced at the evidentiary hearings, the Court finds that Petitioner has
failed to meet her burden of proof in establishing that

R.A. 55
the records requested in PRRBNP No. 16, 17, 18, and
19 in fact exist. See O’Boyle, 257 So. 3d at 1040. Moreover, the only document shown to exist that is responsive to this request was timely produced by USF. The
Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP Nos. 16, 17, 18, and 19.
Public Records Requested But Not Provided
No. 20
Public Records Requested But Not Provided No.
20 seeks “[r]ecords of any telephone calls made to
Gerard Solis, or anyone else on his behalf, concerning
Angela DeBose, from June 2014 to June 2015, including phone bills, long distance phone records, voice messages, emails, or electronic/hardcopy notes. This would
include any comments, statements, discussion, or reports about Angela DeBose’s employment, retention,
termination, discrimination, etc. This would include
any typed, handwritten, recorded, etc. public records
Gerard Solis created.”
PRRBNP No. 20 corresponds to PRR No. 6, which
was an August 12, 2015, email from Petitioner to Solis
with the subject “Telephone Records, etc.” Despite the
characterization of PRRBNP No. 20, what PRR No. 6
actually requested was the following:
1.

Records of any telephone calls made to
you, or anyone else on your behalf, by Angela DeBose, in June 2014. Such records
shall include, without limitation, phone
bills, long distance phone records, voice

R.A. 56
messages, or notes or other documentation of any aspect such as telephone calls.
Additionally, provide the date, time, and
length of any and all calls, hang-ups,
disconnects, etc. and the actual unmanipulated voice recordings left on your
answering service.
2.

Records of any telephone calls made by
you, or anyone else on your behalf, to Angela DeBose, in June 2014. Such records
shall include, without limitation, phone
bills, long distance phone records, voice
messages, or notes or other documentation of any aspect such as telephone calls.
Additionally, provide the date, time, and
length of any and all calls, hang-ups, disconnects, etc. and the actual unmanipulated voice recordings left on your
answering service.

3.

Any and all original notes you made,
whether typed, handwritten, records, etc.,
concerning your June 2014 phone discussions with Angela DeBose.

Petitioner Exhibit 54. Petitioner further stated that
the request was “Nil follow-up to the hearing,” and requested that “please provide or bring with you the following for the 8/14 deposition.” Id. The Court initially
questions whether this was a valid public records request or a deposition duces tecum request. However,
that issue aside, the Court finds that even if this were
a valid public records request, no evidence was presented that responsive records exist or that if such

R.A. 57
records exist, that USF refused to produce such records. Therefore, the Court finds that Petitioner has
failed to meet her burden of proof regarding the documents requested in PRRBNP No. 20. See O’Boyle, 257
So. 3d at 1040. The Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No.
20.
Public Records Requested But Not Provided
No. 22
Public Records Requested But Not Provided No.
22 seeks “Public Records Request to Brian Allman,
USF Human Resources, for termination data by race/
ethnicity and gender.” PRRBNP No. 22 corresponds to
PRR No. 9, which was an August 18, 2014, email from
Petitioner to Brian Allman (“Allman”) with the subject
“RE: Data Request.” Petitioner Exhibit 54. In this request, Petitioner sought enumerated categories of “termination data” which related to the reasons for the
ending of USF Academic Affairs and Student Success
employee’s employment. In response to PRR No. 9, Allman searched the GEMs system which stores Human
Resources data at USF. T. 11/2/19 p. 199. Allman testified that while the GEMs system has data fields which
display whether an employee was terminated or resigned, it does not show whether an employee was
provided severance pay in connection with their separation from USF. Id. Information regarding separation
agreements is not customarily maintained in personnel files. Id at 284. Nor is there a software code that
would indicate whether or not someone resigned

R.A. 58
voluntarily or were asked to resign. Id. at 200. Allman
confirmed that there was no way to readily pull data
regarding the reason for an employee’s retirement. Id.
Solis confirmed that significant portions of the information requested in PRR No. 9 would have to be created. Id. at 293-94. For instance, Allman confirmed
that a case by case assessment would have to occur
whereby someone would go from department to department to interview people to find out the cause for
resignation or retirement. Id at 144.
On October 7, 2014, USF sent Petitioner the available, responsive data, but informed her that the remainder of the request would require the creation of
new data and require extensive use of information
technology and clerical services. USF Exhibit 12. On
March 27, 2015, Petitioner was provided with a Charge
Document in the amount of $1,206.80 related to the
records requested in PRR No. 9. USF Exhibit 12; T.
4/3/19 p. 16-17. No evidence was presented demonstrating that Petitioner ever paid the amount required
in the Charge Document.
Given the testimony and evidence adduced at the
evidentiary hearings, the Court finds that USF timely
produced responsive documents that were in existence.
No legal authority has been presented which would require USF to create responsive documents. Moreover,
Petitioner failed to pay the amount USF requested to
undertake the creation of documents which may have
provided responsive information. Therefore, Petitioner
failed to meet her burden of proof regarding the records requested in PRRBNP No. 22. See O’Boyle, 257 So.

R.A. 59
3d at 1040. The Court finds Petitioner is not entitled to
mandamus relief with respect to PRRBNP No. 22.
Public Records Requested But Not Provided
No. 23
Public Records Requested But Not Provided No.
23 seeks “Public Records Request to Gerard Solis and
Lori Mohn, USFBOT Office of the General Counsel,
for Ellucian, L.P. USFBOT provided documents related to the Ellucian Agreement, without the public
records statement and without the names of the parties signing/executing agreement.” PRRBNP No. 23
corresponds to PRR No. 11, which was a September 21,
2015, email from Petitioner to Solis and Lori Mohn
with the subject “Public Records Request.” In the body
of that email, Petitioner requested “a complete copy of
the Ellucian Consulting Services Agreement with USF,
pursuant to Andrea Diamond’s visit it [sic] April 2015.”
Petitioner further requested “Andrea Diamond’s meeting schedule during the visit, as coordinated by Carrie
Garcia.” Finally, Petitioner requested “any and all
emails that went out from Paul Dosal or other members of the DegreeWorks Steering Committee concerning the Ellucian DegreeWorks Post-Implementation
Report.” Petitioner Exhibit 54.
The testimony of Solis established that he interpreted PRR No. 11 as seeking documents related to the
engagement of Andrea Diamond in April 2015, and not
to all Ellucian contracts with USF. T. 11/2/19 p. 271-72.
On October 1, 2015, USF produced the scope document

R.A. 60
and the contracting document for the post-assessment
review. Id. at 272. USF provided a second production of
responsive records to Petitioner on October 29, 2015.
Id. at 283-84; T. 5/21/19 at 34-35.
The Court notes that PRR No. 11 was not part of
Petitioner’s original petition for writ of mandamus, but
rather was included in Petitioner’s Second Amended
Petition. Given the testimony and evidence adduced at
the evidentiary hearings, the Court finds that Petitioner’s request in PRR No. 11 was a narrower request
than that presented in PRRBNP No. 23. The Court further finds that USF timely responded to the narrower
PRR No. 11. Therefore, Petitioner failed to meet her
burden of proof regarding the records requested in
PRRBNP No. 23. See O’Boyle, 257 So. 3d at 1040. The
Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No. 23.
Additional Public Records Request
On July 23, 2015, Petitioner requested the “current or most recent address on record for the USF current/former employees, agents, assigns, etc.” Petitioner
Exhibit 54. On August 3, 2015, Petitioner requested
“the last known address of record for Tonia Suber,
Bea Smith, Jennifer Derushia, and Caurie Waddell.”
Petitioner Exhibit 54. After Petitioner narrowed her
request, USF produced the requested, narrowed information on August 5, 2015. Petitioner Exhibit 90.
Therefore, although neither of these requests were included in Petitioner’s Notice of Filing of the Amended

R.A. 61
List of Public Records Requested But Responses Not
Provided, the Court finds that USF produced the requested documents in a timely manner. Accordingly,
Petitioner failed to meet her burden of proof regarding
these two additional requests. See O’Boyle, 257 So. 3d
at 1040. The Court finds Petitioner is not entitled to
mandamus relief with respect to these additional public records requests.
Conclusions of Law
A petition for writ of mandamus seeks to remedy
a government’s failure to do something it is required
by law to do by obtaining a court order commanding
such action of the government. To obtain a writ of mandamus, a petitioner must establish the following:
(1) the petitioner has a clear and certain legal right
(2) to the performance of a particular duty
(3) by a government or a representative of
the government
(4) whose performance of that duty is ministerial and not discretionary,
(5) who has failed to perform despite an adequate request, and
(6) who has left the petitioner with no other
legal method for obtaining relief.
21 Fla. Prac., § 1701:1 (2019-20 ed.); see also Huffman
v. State, 813 So. 2d 10, 11 (Fla. 2000). As noted above,

R.A. 62
to establish a cause of action under the Public Records
Act, the litigant must “prove they made a specific request for public records, the [state agency] received it,
the requested public records exist, and the [state
agency] improperly refused to produce them in a
timely manner.” O’Boyle, 257 So. 3d at 1040. A writ of
mandamus with respect to a public records request
will not issue where it is not shown that the requested
document(s) actually exist. See Skeen v. D’Alessandro,
681 So. 2d 712, 713 (Fla. 2d DCA 1995) (citing State ex
rel. Ostroff v. Pearson, 61 So. 2d 325, 326 (Fla. 1952)
(holding that writ will not issue when evidence showed
papers no longer existed)). A writ of mandamus is similarly not warranted where the issue has become moot,
for example, where the state agency has provided the
responsive documents. See generally Huebner v. Huebner, 93 So. 3d 470, 471 (Fla. 2d DCA 2012).
The Court concludes that Petitioner has failed to
meet her burden of proving that she made specific requests for public records, that USF received each of
those requests, that each of those requested records actually exist, and that USF improperly refused to produce such records in a timely manner. As outlined
above, the evidence established that the requested
public records either did not exist, or where such did
exist, that they were provided in a timely manner under the circumstances. See Citizens Awareness Found,
Inc. v. Wantman Group, Inc., 195 So. 3d 396, 399 (Fla.
4th DCA 2016) (“Where delay is at issue, as here, the
court must determine whether the delay was justified
under the facts of the particular case.”) (quoting Lilker

R.A. 63
v. Suwannee Valley Transit Auth., 133 So. 3d 654, 655
(Fla. 1st DCA 2014)). This is particularly true where,
as here, some of the requests became moving targets,
morphing over the course of this litigation. Having considered all of the testimony and evidence presented at
each of the evidentiary hearings in this matter, the
Court concludes that Petitioner has failed to establish
entitlement to a writ of mandamus.
Petitioner’s Attorney’s Fees Request
With regard to Petitioner’s request for attorney’s
fees, section 119.12(1), Florida Statutes, provides as
follows:
(1) If a civil action is filed against an agency
to enforce the provisions of this chapter,
the court shall assess and award the reasonable costs of enforcement, including
reasonable attorney fees, against the responsible agency if the court determines that:
(a) The agency unlawfully refused to
permit a public record to be inspected
or copied; and
(b) The complainant provided written
notice identifying the public record
request to the agency’s custodian of
public records at least 5 business
days before filing the civil action, except as provided under subsection
(2). The notice period begins on the
day the written notice of the request

R.A. 64
is received by the custodian of public
records, excluding Saturday, Sunday,
and legal holidays, and runs until 5
business days have elapsed.
§ 119.12(1), Fla. Stat. (2017) (emphasis added). It is
only under these certain conditions that section 119.12
“permits the award of attorney’s fees to a prevailing
litigant who has filed a civil action against an agency
to enforce the provisions of Florida’s public records
law.” Office of State Attorney v. Gonzalez, 953 So. 2d
759, 762-63 (Fla. 2d DCA 2007) (emphasis added). The
Court concludes that Petitioner is not entitled to attorney’s fees because she failed to prove that USF unlawfully refused to permit a public record to be impacted
or copied. Petitioner failed to meet her burden of proof
with respect to each of her claims against USF. Therefore, she is not entitled to an award of costs or fees in
this matter. Moreover, Petitioner has represented herself throughout the majority of this action, and certainly for the entirety of the multiple evidentiary
hearings. Petitioner, who is not a licensed Florida Bar
attorney, is not entitled to attorney’s fees for representing herself. Consequently, Petitioner’s request for attorney’s fees is denied.
Any and All Other Pending Motions
Any and all other pending motions for which a separate hearing was not held or for which a separate

R.A. 65
order was not entered are deemed denied by entry of
this final order.8
Accordingly, it hereby is ORDERED as follows:

8

1.

Petitioner’s Second Amended Petition is
DENIED, in part, as to Petitioner’s Public Records Requested But Not Provided
Numbers 1, 2, 3, 4, 15, 16, 17, 18, 19, 20,
22, and 23. Having decided herein the remaining disputed issues in this case according to the procedure set forth in the
Court’s August 16, 2018, Order Continuing Evidentiary Hearing, the Court enters this Final Order Denying Second
Amended Petition for Writ of Mandamus
as the final order in this case.

2.

The Court reserves jurisdiction to enter any
other or additional orders or judgments

The Court notes that in her December 9, 2019, Motion for
Extension of Time, Petitioner additionally argued that a pending
motion for partial summary judgment had not yet been heard, required a hearing, and somehow prevented the Court from entering an order on the final evidentiary hearing in this matter. In its
December 11, 2019, order denying Petitioner’s request, the Court
explained that separate hearing time would not be provided with
respect to Petitioner’s motion for partial summary judgment as
the time for a separate hearing on that matter had passed. Moreover, a separate hearing on the motion for partial summary judgment was simply not necessary where a final evidentiary hearing
had been held and the Court had already heard all the evidence
that could or would be presented in this matter. Essentially, any
“pending” motion for summary judgment was subsumed in the final evidentiary hearing. Petitioner also filed Petitioner’s Motion
to Modify Order on December 11, 2019. The Court finds a separate
hearing on this motion likewise is not required, and it too is denied by the entry of this final order.

R.A. 66
that may be necessary or appropriate, including an order or judgment awarding
prevailing party attorneys’ fees and/or
costs.
DONE AND ORDERED: January ___, 2020.
ORIGINAL SIGNED
[Illegible]
ELIZABETH G. RICE
CIRCUIT JUDGE
ELIZABETH G. RICE
Circuit Court Judge
[Service Notice Omitted]

R.A. 67
EXHIBIT B
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Petitioner/Plaintiff,
v.

CASE NO.:
15-CA-005663
DIVISION: C

UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES,
Respondent/Defendant.

/

ORDER DENYING PETITIONER/PLAINTIFF’S
MOTION FOR EXTENSION OF TIME
THIS CASE came before the Court without hearing on Petitioner/Plaintiff ’s Motion for Extension of
Time, filed on December 9, 2019 (“Motion”). A hearing
on this Motion is not required or necessary. Having reviewed the Motion; having reviewed the record; and
having considered the applicable case law, statutes,
and rules of procedure, the Court finds as follows:
On December 4, 2019, this Court entered an Order
on the Procedure and Deadlines for Submitting Proposed Orders on Petitioner’s Amended Petition for Writ
of Mandamus, outlining for the parties that if they desired to submit written closing arguments, such were
due to the Court on or before December 13, 2019. The

R.A. 68
parties were further directed to submit proposed findings of fact and conclusions of law by the same date.
In her Motion, Petitioner seeks a 60-day extension
of time as to the deadlines outlined in the Court’s December 4, 2019, Order. After considering Petitioner’s
Motion, the Court once again notes that Petitioner had
full knowledge that the final two-hour segment of the
final evidentiary hearing in this case would proceed on
November 15, 2019. Despite having all other efforts to
delay or cancel the final evidentiary hearing fail, Petitioner chose to voluntarily absent herself from the final
evidentiary hearing which was held as scheduled on
November 15, 2019. The Court undertook additional
efforts to offer Petitioner the opportunity to appear telephonically at the final evidentiary hearing, with no
response from Petitioner.
At the conclusion of the final evidentiary hearing,
the Court announced in open court the deadline of December 6, 2019, by which the parties could submit, if
they so choose, written closing arguments and proposed findings of fact and conclusions of law. The opportunity to submit written closing arguments inured
to the benefit of Petitioner, who was absent from the
final evidentiary hearing and thus, unable to present
argument at that time. The December 6, 2019, deadline
was memorialized in the Court’s Court Memorandum
which was filed immediately after the hearing on November 15, 2019. Upon consideration of the proposed
order outlining these deadlines, the Court unilaterally
extended the originally-announced deadline to December 13, 2019, providing the parties with an additional

R.A. 69
week within which to submit its arguments and proposed orders. This Order was emailed to the parties
immediately after its entry on December 4, 2019.
Given the foregoing, the Court finds that Petitioner has
been provided more than sufficient notice and time
within which to file written closing arguments and a
proposed order for this Court’s consideration, neither
of which is this Court required to permit or consider.
Petitioner has failed to set forth facts or law of a
strongly convincing nature to induce the Court to once
again delay the final resolution in this matter.
Additionally, Petitioner contends that a pending
motion for partial summary judgment, which the
docket reflects was filed July 23, 2018, has not been
heard, requires a hearing, and somehow prevents the
Court from entering an order on the final evidentiary
hearing in this matter. No separate hearing time will
be provided with respect to Petitioner’s motion for partial summary judgment as the time for a separate
hearing on the motion has passed. After nearly 30
hours of hearing time over which this Court has presided in this matter, the last two-hour segment of the
final evidentiary hearing was held on November 15,
2019. No additional hearing time will be granted prior
to the entry of a final order or judgment in this case.
Moreover, a separate hearing on the motion for partial
summary judgment is simply unnecessary where a final evidentiary hearing has been held, and the Court
has heard all the evidence that can or will be presented
in this matter. Petitioner’s motion filed nearly 18

R.A. 70
months ago accordingly and is otherwise deemed abandoned.
Petitioner and Respondents alike have until December 13, 2019, to submit to this Court, if they so
choose, written closing arguments and proposed findings of fact and conclusions of law.
Accordingly, for the reasons set forth above, Petitioner/Plaintiff ’s Motion is DENIED.
DONE AND ORDERED as of the date and time
imprinted below with the Judge’s signature.
Electronically Conformed
12/11/2019
Elizabeth G. Rice
ELIZABETH G. RICE
Circuit Court Judge
[Service Notice Omitted]

R.A. 71
EXHIBIT C
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Petitioner/Plaintiff,
v.

CASE NO.:
15-CA-005663
DIVISION: C

UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES, et al.
Respondents/Defendant.

/

ORDER DENYING PETITIONER/PLAINTIFF’S
MOTION FOR JURY TRIAL, SETTING JURY
TRIAL, AND PRETRIAL CONFERENCE
THIS CASE came before the Court without hearing on Petitioner/Plaintiff ’s Motion for Jury Trial,
Setting Jury Trial, and Pretrial Conference filed on
November 18, 2019 (“Motion”). A hearing on this Motion is not required or necessary given the procedural
posture of this case and the substance of the motion.
Having reviewed the Motion; having reviewed the
record; and having considered the applicable case law,
statutes, and rules of procedure, the Court finds as
follows:
Having full knowledge the final two-hour segment
of the final evidentiary hearing in this case would proceed on November 15, 2019, having all other efforts to

R.A. 72
delay or cancel the final evidentiary hearing fail, and
subsequently learning that the November 15, 2019,
hearing did in fact proceed in her voluntary absence,
Petitioner now attempts to obtain a second final evidentiary hearing by claiming entitlement to a jury
trial. Petitioner is not entitled to a jury trial on her
Second Amended Petition for Writ of Mandamus and
for Violation of the Florida Public Records Law and Relief Pursuant to Article 1, Section 24 of the Florida
Constitution and Chapter 119 and Chapter 86 (“Second Amended Petition’) seeking certain alleged public
records pursuant to Chapter 119. See § 119.11(1), Fla.
Stat. (1984) (laying out the procedure for an accelerated hearing on requests under this chapter). Petitioner provides no viable support for her contention
that, after 28-plus hours of hearing time and the conclusion of the final evidentiary hearing, she is now entitled to a jury trial.
Petitioner’s citation to Rhea v. District Board of
Trustees of Santa Fe College for the proposition that a
jury trial was held, and by analogy entitles her to a
jury trial, is patently false. See Rhea, 109 So. 3d 851
(Fla. 1st DCA 2013). In that case, a professor sought
against his employing college a petition for writ of
mandamus alleging a violation of Florida’s public records laws (count one) and a petition for declaratory
judgment alleging a violation of a college rule (count
two). Id at 853. Petitioner does accurately point out
that the professor specifically requested a jury trial.
However, those requests were made in the initial
pleading, in accordance with Rule 1.430. Id.; see also

R.A. 73
Fla. R. Civ. P. 1.430(b), (d) (1993) (explaining the requirements for requesting a jury trial and the waiver
thereof ). Here, Petitioner made no prayer for a jury
trial in her originally-filed Complaint, but rather requested an accelerated hearing pursuant to Section
119.11(1). Finally, and of critical distinction in Rhea,
the trial court granted a motion to dismiss with prejudice upon motion by the college; no jury trial was held.
Id. at 854. The appellate court ultimately affirmed the
dismissal. Id. at 860. Accordingly, Petitioner’s citation
to Rhea for the proposition she is entitled to a jury trial
in this case is misplaced.
This Court has afforded Petitioner extensive hearing time in this matter. Petitioner was offered the opportunity to appear telephonically at the final, twohour segment of the final evidentiary hearing on her
Second Amended Petition on November 15, 2019. It appears to this Court that Petitioner has been afforded
all the due process to which she was entitled. The fact
she voluntarily absented herself from the November
15, 2019, hearing, a date she originally agreed to and
for which she had sufficient advance notice, does not
now entitle her to a jury trial.
Accordingly, for the reasons set forth above, Petitioner’s Motion is DENIED.
DONE AND ORDERED as of the date and time
imprinted below with the Judge’s signature.

R.A. 74
Electronically Conformed
11/27/2019
Elizabeth G. Rice
ELIZABETH G. RICE
Circuit Court Judge
[Service Notice Omitted]

EXHIBIT D
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff,
v.

CASE NO.:
15-CA-005663
DIVISION: C

UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES,
Defendant.

/

ORDER DENYING PLAINTIFF’S EMERGENCY MOTION FOR RECONSIDERATION
OF ORDER DENYING PLAINTIFF’S MOTION
FOR RECUSAL OF PRESIDING JUDGE AND
PROTECTION FROM HEARING DATE
THIS CASE came before the Court on Plaintiff ’s
Emergency Motion for Reconsideration of Order

R.A. 75
Denying Plaintiff ’s Motion for Recusal of Presiding
Judge and Protection from Hearing Date submitted to
the Court’s division email at 7:10 a.m. on November 15,
2019 (“Motion”). Plaintiff seeks emergency reconsideration of this Court’s November 14, 2019, order denying
Plaintiff ’s motion for recusal of the undersigned, and
request for protection from the hearing set for November 15, 2019, beginning at 9:00 a.m. Having reviewed
the Motion; having reviewed the record; and having
considered the applicable case law, statutes, and rules
of procedure, the Court finds no reason to reconsider
its prior ruling. Accordingly, the Motion is DENIED.
The continued evidentiary hearing set for Friday, November 15, 2019, at 9:00 a.m., which has been set since
September 11, 2019, WILL PROCEED. Plaintiff may
appear telephonically if she desires.
DONE AND ORDERED as of the date and time
imprinted below with the Judge’s signature.
Electronically Conformed
11/15/2019
Elizabeth G. Rice
ELIZABETH G. RICE
Circuit Court Judge
[Service Notice Omitted]

R.A. 76
EXHIBIT E
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff,
v.

CASE NO.:
15-CA-005663
DIVISION: C

UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES,
Defendant.

/

ORDER DENYING PLAINTIFF’S TIMESENSITIVE MOTION FOR RECUSAL
OF PRESIDING JUDGE AND
PROTECTION FROM HEARING DATE
THIS CASE came before the Court on Plaintiff ’s
Time-Sensitive Motion for Recusal of Presiding Judge
and Protection from Hearing Date, filed November 12,
2019 (“Motion”).1 Having reviewed the Motion; having
reviewed the record; and having considered the applicable case law, statutes, and rules of procedure, the
Court finds that the allegations in the Motion are legally insufficient and otherwise untimely. See Fla. R.
Jud. Admin. 2.330. In support of her request, Plaintiff
alleges that she filed a mandamus complaint against
1

The Court notes that Plaintiff also filed a substantially similar motion in case 17-CA-001652.

R.A. 77
the undersigned on November 6, 2019, in case 19-CA011407. However, case law is clear that the mere filing
of a lawsuit against the judge does not constitute
grounds for disqualification. See May v. South Fla. Water Mgmt. Dist., 866 So. 2d 205, 206 (Fla. 4th DCA
2004) (affirming order denying disqualification as legally insufficient where based solely on the filing of a
lawsuit against the judge) (citing Dowda v. Salfi, 455
So. 2d 604 (Fla. 5th DCA 1984) (explaining that to hold
otherwise would allow a litigant to control who will sit
as judge in his case by filing lawsuits against judges
he does not prefer)). Plaintiff has presented no other
factual basis to support her contention that she will
not receive a fair trial. Nor can Plaintiff present any
such timely factual support as no judicial action has
occurred in this matter in the past ten days. See Fla. R.
Jud. Admin. 2.330(e). Accordingly, the Motion is DENIED. The continued evidentiary hearing set for Friday, November 15, 2019, at 9:00 a.m. WILL
PROCEED.
DONE AND ORDERED as of the date and time
imprinted below with the Judge’s signature.
Electronically Conformed
11/14/2019
Elizabeth G. Rice
ELIZABETH G. RICE
Circuit Court Judge
[Service Notice Omitted]

R.A. 78
EXHIBIT F
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Petitioner/Plaintiff,
v.

CASE NO.:
15-CA-005663
DIVISION: C

UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES,
Respondent/Defendant.

/

ORDER DENYING PETITIONER’S
RENEWED MOTION FOR A MISTRIAL
OR ALTERNATIVELY NEW TRIAL
THIS MATTER is before the Court without hearing on Petitioner’s “Renewed Motion for a Mistrial or
Alternatively New Trial” filed June 16, 2019 (“Motion”). In her Motion, filed pursuant to Florida Rule of
Civil Procedure 1.530, Petitioner “renews her motion
for a mistrial or alternatively moves for a new trial.”
The Court first finds a hearing on this matter is not
required nor necessary. See generally Aubourg v. Erazo,
922 So. 2d 1106, 1107 (Fla. 4th DCA 2006) (holding
that a hearing is not required before the court can deny
a motion for new trial).

R.A. 79
With respect to Petitioner’s request for a new trial,
the Court finds that such request is premature as the
final evidentiary hearing in this matter has not yet
concluded, and a final order in this case has not yet
been rendered. As such, Petitioner’s request for a new
trial is denied without prejudice. Petitioner also seeks
a mistrial. To the extent this request is procedurally
proper given the nature of the proceedings, the Court
finds in its discretion no basis upon which to grant this
relief at this time.
Accordingly it is ORDERED as follows:
1.

Petitioner’s Motion is DENIED.

DONE AND ORDERED as of the date and time
imprinted below with the Judge’s signature.
/s/ Elizabeth G. Rice
ELIZABETH G. RICE
Circuit Court Judge
[Service Notice Omitted]

R.A. 80
EXHIBIT G
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff/Petitioner,
v.

CASE NO.
15-CA-005663
DIVISION: C

USF BOARD OF TRUSTEES,
USF ACADEMIC AFFAIRS OF
USF, STUDENT SUCCESS OF
USF, and PAUL DOSAL,
Defendants/Respondents.

/

ORDER DENYING SECOND
AMENDED PETITION, IN PART
THIS CASE came before the Court for an evidentiary hearing on October 9, 2018, on Petitioner’s Second Amended Petition for Writ of Mandamus and for
Violation of the Florida Public Records Law and Relief
Pursuant to Article 1, Section 24 of the Florida Constitution and Chapter 119 and Chapter 86 (“Second
Amended Petition”) as to the bifurcated issue of the
reasonableness of charges for producing documents
in response to various public records requests made by
the petitioner, Angela DeBose (“DeBose”), to respondents, USF Board of Trustees, USF Academic Affairs
of USF, Student Success of USF (the USF entities will

R.A. 81
be referred to hereinafter collectively as “USF”), and
Paul Dosal (“Dosal”).
The Court has considered the Second Amended
Petition, together with the relevant portions of the
court file; has reviewed the parties’ written submissions in support of and in response to the Second
Amended Petition as it relates to the issue of the reasonableness of USF’s charges in producing requested
documents; has reviewed the testimonial and documentary evidence presented by the parties; has had
the opportunity to observe the demeanor of each witness and assess each witness’ credibility; and has considered the applicable statutory and case law and rules
of procedure. Based on the foregoing, the Court makes
the findings of fact and conclusions of law more particularly set forth below.
FINDINGS OF FACT
Bifurcated Final Evidentiary Hearing
1. On August 16, 2018, the Court entered its
Order Continuing Evidentiary Hearing, which set the
issues for hearing at the October 9, 2018, evidentiary
hearing as follows: “The Court will conduct an evidentiary hearing to address the reasonableness of fees
charged in response to Petitioner’s Public Records Request Nos. 5-14 and 21, as delineated in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018.”

R.A. 82
USF Subject to Public Records Act
2. USF is a state agency and is therefore subject
to Chapter 119, Florida Statutes. [10/09/18 Evidentiary Hearing Transcript, Gerard Solis (“Solis”) 27:2225]
USF Public Records Request Policies and Procedures
3. Solis has been employed with USF since 2003.
[10/09/18 Evidentiary Hearing Transcript, Solis
114:13] He has been continuously involved with responding and assisting in responding to public records
request throughout his employment with USF and is
familiar with the procedure USF follows with respect
to responding to a public records request. [10/09/18 Evidentiary Hearing Transcript, Solis 114:16-24] He likewise is familiar with USF’s policies in responding to
public records requests. [10/09/18 Evidentiary Hearing
Transcript, Solis 122-123;24-25; 1-2]
4. USF’s practice and policy when a Public Records Act request (“PRR”) is received is to first, have
“[t]he custodian of the record make an initial determination about whether an exemption applies. The
threshold determination is do they have the record
and whether an exception would apply.” [10/09/18 Evidentiary Hearing Transcript, Solis 115:3-6] Next, the
custodian would have to make some analysis as to the
volume of responsive documents. [10/09/18 Evidentiary Hearing Transcript, Solis 115:7-13] If the volume
is significant, then USF would likely prepare a charge

R.A. 83
document of estimated charges. [Id.] Large requests,
nine out of 10 times, involve requests for emails. [Id.]
Next, USF must determine whether a public records
exemption applies to any of the requested documents.
[10/09/18 Evidentiary Hearing Transcript, Solis 116:513] There are several exemptions that would apply for
the types of documents in USF’s possession. [10/09/18
Evidentiary Hearing Transcript, Solis 116-117:5-25;
1-7] Once the universe of documents has been determined, USF typically would review them and determine whether any exemptions apply. [10/09/18
Evidentiary Hearing Transcript, Solis 118:8-10] These
practices are the standardized practices for all PRR’s
coming through the general counsel’s office. [10/09/18
Evidentiary Hearing Transcript, Solis 118:11-14]
5. USF recently revised its policy on responding
to public records requests and defined “extensive” clerical and information technology (“IT”) time as beginning “after 15 minutes of staff time,” to clarify prior
policy. [10/09/18 Evidentiary Hearing Transcript, Solis
97:15-16]
6. To estimate the time necessary to review documents for exemptions or privileged information, USF
uses a standard formula for all public records requests.
[10/09/18 Evidentiary Hearing Transcript, Lori MohnMcNenney (“Mohn”) 173:4; 7-8] USF did not develop
the formula; rather, it was taken from the cost recovery
policy posted on the Governor’s website. [10/09/18 Evidentiary Hearing Transcript, Mohn 173-174:10-11; 1314; 24-25; 1-2]

R.A. 84
7. The formula for calculating the labor cost is as
follows: The number of emails1 is multiplied by 60 seconds per email in order to get the total number of seconds that it would take to complete review of the
emails for redactions. Next, the number of seconds is
divided by 60 in order to get the total number of
minutes the review would require. The number of
minutes is again divided by 60 in order to get the total
number of hours the review would require. Finally, the
hour figure is multiplied by the lowest hourly rate, not
including benefits, of the clerical employee reviewing
the documents. [10/09/18 Evidentiary Hearing Transcript, Mohn 189-190:24-25; 1-6 and Defendant’s Exhibit No. 35]
8. As some emails take five seconds to review
and some take five minutes, it has been USF’s longstanding practice and the practice of the general counsel’s office to use 60 seconds per email as an estimate
for the length of time needed to review an email.
[10/09/18 Evidentiary Hearing Transcript, Solis 128129:19-23; 1] The 60-second estimate is always used,
not just for PRR’s from DeBose. [10/09/18 Evidentiary
Hearing Transcript, Solis 128-129:24-25; 1]
9. The Florida Governor’s website allows for salary and benefits to be included in the hourly rate of the
clerical worker performing the labor associated with
responding to the public records request. [10/09/18
1

The number of emails reflected in the Charge Document
does not take into account the amount of pages per email, which
can far exceed the raw number of emails pulled from each custodian’s email by IT.

R.A. 85
Evidentiary Hearing Transcript, Mohn 194:3-11] USF,
however, does not include benefits in the hourly rate of
its clerical worker in response to public records requests, and General Counsel’s Office did not include
benefits in the hourly rate charged in any of the estimates provided to DeBose that are the subject of this
case. [Id.]
10. The review and redaction of each public records request, including the requests that are the subject of this case, are performed manually. “[E]very
single file would have to be reviewed for exemption information” by paralegals and other legal assistants in
the General Counsel’s Office. [10/09/18 Evidentiary
Hearing Transcript, Mohn 179: 10-16] USF General
Counsel’s Office does not have redaction software. [Id.]
For a redaction software to have the capability to redact student information, all current and former students’ names and information would have to be
inputted into a system. [10/09/18 Evidentiary Hearing
Transcript, Solis 135-136: 24-25; 1-2]
11. The review and redaction of public records
requests typically takes “more time” than the time
estimate reflected in charge documents. [10/09/18 Evidentiary Hearing Transcript, Mohn 195:23] USF, however, does not subsequently send a revised charge
document reflecting the additional time expended.
[10/09/18 Evidentiary Hearing Transcript, Mohn
194:1-4]
12. USF has provided refunds when the estimated cost reflected in the charge documents exceeds

R.A. 86
the actual labor/clerical cost. [10/09/18 Evidentiary
Hearing Transcript, Solis 107-108: 23-25; 1-3]
13. The General Counsel’s Office has never included Solis’ hourly rate in calculating DeBose’s request estimations, even when Solis performed a
secondary review of documents requested. Because
Mohn’s hourly rate is lower, USF uses her hourly rate
in determining the hourly rate associated with the review. [10/09/18 Evidentiary Hearing Transcript, Solis
50:11-12]
14. The formula for calculating the IT costs is as
follows: The hours estimated multiplied by the hourly
rate of the IT employee. [10/09/18 Evidentiary Hearing
Transcript, Mohn 189-190:24-25; 1-6 and Defendant’s
Exhibit No. 35]
15. USF only charges for IT or clerical time if
the request is extensive. If not, USF would apply the
standard fee of $0.15 to $0.20 provided for in Chapter
119(4)(a)(1) and (2), Florida Statutes, for copies of documents. The $0.15 to $0.20 fee is only for copies and
“has nothing to do with the review and redaction of
emails.” [10/09/18 Evidentiary Hearing Transcript,
Mohn 193:11-14]
16. USF requires advance payment for public
records requests that require extensive IT or clerical
support, evidenced by the production of a charge document to the requestor. [10/09/18 Evidentiary Hearing
Transcript, Solis 31:9-10]

R.A. 87
17. USF now requires advance payment for IT to
perform a requestor’s search, rather than performing
the IT search and recouping the money later. USF “always did it the same way, but [USF] used to let requestors basically get away with having the search done
before they paid. And then [General Counsel’s Office]
would end up eating the cost or IT would end up eating
the cost. So now [General Counsel’s Office has] . . . the
requestor pay for IT search. And then once the requestor pays for the search, [General Counsel’s Office has]
IT do the search.” [10/09/18 Evidentiary Hearing Transcript, Mohn 175:12-18]
18. USF did not treat DeBose’s requests any differently than any other public records request and “the
charges and processes for charges . . . [have] been applied consistently regardless of who makes the request.” [10/09/18 Evidentiary Hearing Transcript,
Solis 124:16-23] There is no difference between the
way that the costs are calculated for DeBose and anyone else. [10/09/18 Evidentiary Hearing Transcript,
Solis 125:14-18] Anyone who makes a public records
request to USF is required to pay an estimated charge.
[10/09/18 Evidentiary Hearing Transcript, Solis 125:813]
19. USF has never withheld or failed to provide
responses to DeBose’s requests for public records, unless DeBose failed to pay the costs of extensive clerical
or IT use/labor associated with her requests. [10/09/18
Evidentiary Hearing Transcript, Solis 32-33:24-25; 18; Mohn 186:13-17]

R.A. 88
20. The Court finds credible the testimony of
Solis and Mohn as it relates to USF’s policies and procedures in handling Public Records Act requests.
Public Records Requests, Searches, and Responses
at Issue
21. DeBose was the Registrar of USF until May
of 2015. [Defendant’s Exhibit No. 32] Since approximately 2015, USF has “received many requests from
the Petitioner . . . [S]ometimes [USF] has identified
exemptions. Other times [USF] [has] provided charges.
Other times [USF] has produced documents” to
DeBose. [10/09/18 Evidentiary Hearing Transcript,
Solis 28:6-9]
22. August 12, 2015, PRR – On August 12,
2015, months after DeBose’s termination in May of
2015, DeBose sent an email to Kofi Glover (“Glover”),
Vice President for RR & Space Planning, and Mike
Beedy (“Beedy”) of the HR Department, renewing an
apparent verbal request for “all of [DeBose’s] email
files and all of [DeBose’s] computer files on disk or
thumb drive.” [Defendant’s Exhibit No. 32] DeBose indicated that she had made this request at the May 19,
2015, meeting when she was informed that her contract with USF was being non-renewed. W.] Glover informed DeBose in a reply email that she made no such
request during the meeting, but if she wished, she
could renew that request. [Id.]
23. August 16, 2015, PRR – On August 16,
2015, DeBose sent a public records request, pursuant

R.A. 89
to Chapter 119, Florida Statutes, by email to Solis,
then Associate General Counsel, copying his administrative specialist/paralegal, Mohn. [Defendant’s Exhibit No. 28] DeBose requested “email and other
similar electronic records that contain the name
‘DeBose’ ” in the possession of President Judy
Genshaft, Provost Ralph Wilcox, Sydney Fernandes,
Robert Sullins, Travis Thompson, Carrie Garcia, Sarah
Thomas, Glover, Beedy, and Alexis Mootoo. [Id.]
24. August 31, 2015, PRR – ‘Thereafter, on August 31, 2015, DeBose sent a public records request to
Solis and Mohn requesting “email(s) from Travis
Thompson that closely aligns to or matches the following description. Statement from Travis Thompson
where he states that he is working with Paul Dosal to
get “AD” fired. Provide emails if “Angela”, “DeBose”,
“Angela DeBose”, “the Registrar” are used also or instead in this context. Provide emails if “fired,” “termination,” removed,” “eliminated,” etc. are used in this
context. Provide emails if “Paul”, “Dosal”, is used. Provide whether or not others are included or copied in the
email (e.g. Bob Sullins; advisors, etc.).” [Defendant’s
Exhibit No. 39]
USF’s Charges and Charge Documents
25. Charge Document #1 – On August 20, 2015,
approximately eight days after DeBose made her public records request to Glover, Mohn provided DeBose a
“University of South Florida Public Records Charge
Document” (“Charge Document #1”) [Defendant’s

R.A. 90
Exhibit No. 32] Charge Document #1 reflects an estimate of the “extensive use of IT resources, file retrieval,
queries, etc.” and of the labor cost, which included “extensive clerical and/or supervisory labor” in the review
and redaction required for the production of DeBose’s
27,623 emails revealed by IT’ s search. [Id.] Specifically, Charge Document #1 reflects it would require
Mohn 460.38 hours to review all 27,623 of DeBose’s
emails. [Id.] As the former Registrar for USF, DeBose
had “high clearance with USF” to review documents
that contained student information and other information subject to redaction/exemption laws. [10/09/18
Evidentiary Hearing Transcript, Solis 53:21-23] Because DeBose was in a unique position as the University Registrar, DeBose had substantially more access
to student information and it was likely that such student information would be included in her emails. As a
result, the review of her emails and files requires a
more thorough review and redaction process to ensure
that information is not disclosed in violation of the
Family Educational Rights and Privacy Act of 1974, 20
U.S.C. § 1232g (“FERPA”). [10/09/18 Evidentiary Hearing Transcript, Solis 45:5-8] The review and redaction
time of DeBose’s 27,623 emails, using the formula provided by the Florida Governor’s website, was estimated
at $9,083.29. [10/09/18 Evidentiary Hearing Transcript, Mohn 173-174:25; 1-2]
26. After her receipt of Charge Document #1,
DeBose inquired whether she could inspect her own
records, supervised by a USF employee. [10/09/18 Evidentiary Hearing Transcript Solis 44:24-25] Solis

R.A. 91
informed DeBose in response that “USF is obligated to
complete the appropriate redactions prior to production. Unauthorized disclosures would occur upon your
review of non-redacted records, which would not be
cured by verification afterwards.” [Plaintiff ’s Exhibit
No. 31; 10/09/18 Evidentiary Hearing Transcript, Solis
45:5-7] ‘The disclosures would be unauthorized because once DeBose’s contract with USF was non-renewed, DeBose’s “ability to have access and be
authorized to see things that were in the registrar with
a very high clearance was no longer valid.” [10/09/18
Evidentiary Hearing Transcript, Solis 57:3-6] USF accordingly declined DeBose’s request to “preview” her
emails as a means by which to reduce the number of
emails subject to Mohn’s review and to reduce the review and redaction cost.
27. DeBose has failed to pay USF in advance the
$9,083.29 estimated cost for the production of documents reflected in Charge Document #1. USF, consistent with its standard policy and procedure, has
refused to provide DeBose the requested documents.
[10/09/18 Evidentiary Hearing Transcript, Solis
129:16-18]
28. Charge Document #2 – 011 August 25,
2015, approximately nine days after DeBose made her
public records request to Solis, Mohn responded to
DeBose’s request with a “University of South Florida
Public Records Charge Document” (“Charge Document
#2”) which provided DeBose a cost estimate for her request for President Genshaft’s and Provost Wilcox’s
emails. Charge Document #2 reflects an estimate of the

R.A. 92
“extensive use of IT resources, file retrieval, queries,
etc.” and of the labor cost, which included “extensive
clerical and/or supervisory labor” in the review and redaction required for the production of President
Genshaft’s and Provost Wilcox’s emails.2 [Defendant’s
Exhibit No. 35] A search by IT of President Genshaft’s
email returned 232 relevant emails. [Id.] A search by
IT of Provost Wilcox’s email returned 920 relevant
emails. [Id.] The IT estimate for President Genshaft’s
and Provost Wilcox’s emails is $49.82. [Id.] The labor
estimate for President Genshaft’s email is $76.283, and
the labor estimate for Provost Wilcox’s emails is
$302.52.4 [Id.] The “Total Estimated Cost” provided to
DeBose in response to her August 16, 2015, PRR, with
respect to President Genshaft and Provost Wilcox, is
$428.62. [Id.]
29. DeBose has failed to pay USF in advance the
$428.62 estimated cost for the production of documents
reflected in Charge Document #2. USF, consistent with

2

The date cited in the body of Defendant’s Ex. No. 35 is a
typo. The charge document was issued in response to DeBose’s
August 16, 2015, public records request, as indicated by the
subject of the charge and by the name of the attached document
“Angela DeBose – Charge Document re 08/16/15 PRR re. emails
referencing Angela DeBose (00090733xBF0F1).pdf” [Defendant’s
Ex. No. 35]
3
232 emails x 60 seconds per email = 13,920 seconds 60 =
232 minutes 60 = 3.86 hours x $19.73 (Lori Mohn hourly rate) =
$76.28
4
920 emails x 60 seconds per email= 55,200 seconds + 60 =
920 minutes + 60 = 15.33 hours x $19.73 (Lori Mohn hourly rate)
= $76.28

R.A. 93
its standard policy and procedure, has refused to provide DeBose the requested documents.
30. Charge Document #3 – Oil August 26,
2015, approximately 10 days after DeBose made her
public records request, Molui emailed a “University of
South Florida Public Records Charge Document”
(“Charge Document #3”) to DeBose with an estimate
for the remainder of her August 16, 2015, PRR. [Defendant’s Exhibit No. 36] Charge Document #3 reflects
an estimate of the “extensive use of IT resources, file
retrieval, queries, etc.” and of the labor cost, which included “extensive clerical and/or supervisory labor” in
the review and redaction required for the production of
the emails of Sydney Fernandes, Robert Sullins, Travis
Thompson, Carrie Garcia, Sarah Thomas, Glover,
Beedy, and Alexis Mootoo. Charge Document #3 includes, among other information, an itemization of the
number of emails recovered and the costs associated in
researching, reviewing, and producing the requested
information.
31. A search by IT of Sidney Fernandes’s email
returned 282 relevant emails. [Id.] Using the standard
formula described in Paragraph No. 7 above, the labor
cost for review and redaction of Sidney Fernandes’s
282 emails was $92.73. [Id.]
32. A search by IT of Robert Sullin’s email returned 1,060 relevant emails. [Id.] Using the standard
formula described in Paragraph No. 7 above, the labor
cost for review and redaction of Robert Sullin’s 1,060
emails was $348.56. [Id.]

R.A. 94
33. A search by IT of Travis Thompson’s email
returned 2,606 relevant emails. Using the standard
formula described in Paragraph No. 7 above, the labor
cost for review and redaction of Travis Thompson’s
2,606 emails was $856.93. [Id.]
34. A search by IT of Carrie Garcia’s email returned 189 relevant emails. [Id.] Using the standard
formula described in Paragraph No. 7 above, the labor
cost for review and redaction of Carrie Garcia’s 189
emails was $62.14. [Id.]
35. A search by IT of Sarah Thomas’s email returned 359 relevant emails. [Id.] Using the standard
formula described in Paragraph No. 7 above, the labor
cost for review and redaction of Sarah Thomas’s 359
emails was $118.05. [Id.]
36. A search by IT of Glover’s email returned 178
relevant emails. [Id.] Using the standard formula described in Paragraph No. 7 above, the labor cost for review and redaction of Glover’s 178 emails was $58.53.
[Id.]
37. A search by IT of Beedy’s email returned 219
relevant emails. [Id.] Using the standard formula described in Paragraph No. 7 above, the labor cost for review and redaction of Beedy’s 219 emails was $72.01.
[Id.]
38. A search by IT of Alexis Mootoo’s email returned 949 relevant emails. [Id.] Using the standard
formula described in Paragraph No. 7 above, the labor

R.A. 95
cost for review and redaction of Alexis Mootoo’s 949
emails was $312.06. [Id.]
39. In addition to the labor estimate, an IT estimate was also applied to each of the searches. A USF
Health IT employee estimated that it took two hours
to complete the search of all of the above-listed custodians. [Id.] The USF Health IT employee’s hourly rate
($45.49) was multiplied by two hours for a total IT cost
estimate of $90.98. [Id.]
40. The same formula was applied to each custodian listed in the Charge Document to determine the
estimation of labor costs, which includes the review
and redaction of documents. [Id.] The total labor cost
for review and redaction, plus the cost of IT use, of
5,296 emails reflected in Charge Document #3 was
$2,011.99. [Id.]
41. DeBose has failed to pay USF in advance the
$2,011.99 estimated cost for the production of documents reflected in Charge Document #3. USF, consistent with its standard policy and procedure, has
refused to provide DeBose the requested documents.
42. Charge Document #4 – In response to her
August 31, 2015, PRR, Mohn provided DeBose a “University of South Florida Public Records Charge Document” (“Charge Document #4”). [Plaintiff ’s Exhibit No.
32] Charge Document #4 reflects an estimate of the
“extensive use of IT resources, file retrieval, queries,
etc.” and of the labor cost, including “extensive clerical
and/or supervisory labor” in the review and redaction
required for the production of Travis Thompson’s

R.A. 96
emails. A search by IT of DeBose’s August 31, 2015,
PRR returned 15,824 emails. [10/09/18 Evidentiary
Hearing Transcript, Solis 91-92:8-25; 1-12] The total
cost estimate for the August 31, 2015, PRR was
$5,203.395 for labor/clerical review and redaction of
documents.
43. Debose has failed to pay USF in advance the
$5,203.99 cost estimate for the production of documents reflected in Charge Document #4. USF, consistent with its standard policy and procedure, has
refined to provide DeBose the requested documents.
44. The Court finds that competent substantial
evidence has been presented by USF to demonstrate
its policies and procedures regarding Public Records
Act requests and the uniform application of its policies
and procedures as to all PRR’s made to USF.
45. The Court further finds that competent substantial evidence supports the number of emails identified by USF’s IT department and no credible evidence
was presented to challenge the accuracy of the number
of emails identified.
46. While DeBose challenged the accuracy of the
number of emails identified in Charge Document #4
and claimed they were not proportionate to the search
request, it appears a reasonable explanation exists for
the increased number of documents generated by the
5

15,824 emails x 60 seconds per email = 949,440 seconds +
60 = 15,824 minutes + 60 = 263.73 hours x $19.73 (Lori Mohn
hourly rate) = $5,203.39.

R.A. 97
request. It appears from Charge Document #4 that
USF’s IT department generated an entirely new
search based on the additional search terms provided
by DeBose in her August 31, 2015, PRR, rather than
using the additional terms provided to perform a “refined” search on the initial 2,606 emails previously disclosed for Travis Thompson in Charge Document #3.
47. As the August 31, 2015, PRR failed to expressly request a “refined” search of the 2,606 emails
previously disclosed, it is understandable how USF
would conduct a new search using the different narrations of DeBose’s name and 10 search terms and how
this new search would result in an increased number
of emails. [Defendant’s Exhibit No. 28] Charge Document #4 accordingly reflected a higher cost estimation
for Travis Thompson’s emails than Charge Document
#3.
CONCLUSIONS OF LAW
Applicable Law and Analysis.
1. While USF is required to comply with Chapter
119, Florida Statutes, it also has a legal duty to redact
any exempt portions of public records before they are
released. See Morris Publ’g Grp., LLC v. State of Fla.,
154 So. 3d 528, 533 (Fla. 1st DCA 2015); Fla. Agency
for Health Care Admin. v. Zuckerman Spaeder, LLP,
221 So. 3d 1260 (Fla. 1st DCA 2017).
2. There are several categories of information
that are exempt from public disclosure in a Chapter

R.A. 98
119, Florida Statutes, public records requests, including:
“[s]ocial security numbers held by an agency are confidential;” “[b]ank account numbers and debit, charge,
and credit card numbers held by an agency;” and clinical records. See Florida Statutes § 119.071(5)(a)(5),
§ 119.071(5)(b), and § 394.4615(1). Furthermore, an
exemption under the Chapter 119 exists for student
educational records, which provides, in relevant part:
“[a] public postsecondary educational institution may
not release a student’s education records without the
written consent of the student to any individual . . . except in accordance with and as permitted by the
FERPA.” § 1006.52(2), Fla. Stat. (2015)
3. “Florida has long required those who seek
[public] records to defray the extraordinary costs associated with their requests.” Bd of Cly. Comm’rs of Highlands Cty. v. Colby, 976 So. 2d 31, 35 (Fla. 2d DCA
2008). Indeed, section 119.07(4)(e), Florida Statutes,
provides as follows:
If the nature or volume of public records requested to be inspected or copied pursuant to
this subsection is such as to require extensive
use of information technology resources or extensive clerical or supervisory assistance by
personnel of the agency involved, or both, the
agency may charge, in addition to the actual
cost of duplication, a special service charge,
which shall be reasonable and shall be based
on the cost incurred for such extensive use of
information technology resources or the labor
cost of the personnel providing the service
that is actually incurred by the agency or

R.A. 99
attributable to the agency for the clerical and
supervisory assistance required, or both.
§ 119.07(4)(e), Fla. Stat.
4. Furthermore, where a service charge is warranted, an agency, such as USF, is authorized to require payment before producing the records. See
Morris Publ’g, 154 So. 3d at 534; Wootton v. Cook, 590
So. 2d 1039, 1040 (Fla. 1st DCA 1991); Colby, 976 So.
2d at 37.
5. Chapter 119, Florida Statutes, likewise expressly allows custodians to withhold documents until
the permitted fee is tendered by the requestor. Specifically, section 119.07(4), Florida Statutes, provides, in
relevant part: “The custodian of public records shall
furnish a copy or a certified copy of the record upon
payment of the fee prescribed by law.” § 119.07(4), Fla.
Stat. (emphasis added). Florida courts have ruled that
“[r]equiring an advance deposit is prudent given the
legislature’s determination that taxpayers should not
shoulder the entire expense of responding to an extensive request for public records.” See Fla. Agency for
Health Care Admin. v. Zuckerman Spaeder, LLP, 221
So. 3d at 1263. Moreover, a person who has requested,
but has failed to pay for the cost of production is not
entitled to mandamus relief on a public records request. See Lozman v. City of Riviera Beach, 995 So. 2d
1027 (Fla. 4th DCA 2008).
6. DeBose’s August 12, 2015, PRR, August 16,
2015, PRR., and August 31, 2015, PRR seek voluminous documents that necessitate the use of extensive

R.A. 100
IT resources and/or clerical support. “Information technology resources” means “data processing, hardware
and software services, communications, supplies, personnel, facility, resources, maintenance, and training.”
§ 119.011(9), Fla. Stat. A local government’s formula
for calculating its special service charge based on its
determination that it will take more than 15 minutes
to locate, review for confidential information, copy, and
refile the requested material has been approved and
upheld in Florida. See Florida Institutional Legal
Servs., Inc. v. Fla. Dept. of Corrections, 579 So. 2d 267
(Fla. 1st DCA 1991), rev. denied, 592 So. 2d 680 (Fla.
1991) (court upheld hearing officer’s order rejecting
inmates’ challenge to the Department of Corrections’
rule defining “extensive” for purposes of special service
charge to mean it would require more than 15 minutes
to locate, review, copy, and refile requested material).
Specifically, in Florida Institutional Legal Servs., Inc.
v. Fla. Dept. of Corr., 579 So. 2d 267 (Fla. 1st DCA
1991), rev. denied, 592 So. 2d 680 (Fla. 1991), the court
stated that “[t]he essence of the appellant’s argument
before this court was that DOC was improperly charging appellant for the DOC’s review for and excision of
information in the inmate files which DOC deems confidential.” 579 So. 2d at 268. The court ruled that the
special service charge could be imposed for work if the
volume of records and the number of potential exemptions make review and redaction of the records a timeconsuming task. Here, DeBose’s August 16, 2015, PRR,
August 12, 2015, PRR, and August 31, 2015, PRR requests total nearly 35,000 emails, and, given her former position as the USF’s Registrar, it is likely that

R.A. 101
many of those emails include exempt information that
USF is required, by federal and Florida state laws, to
protect.
7. USF clearly has a duty to redact public records
under both federal and state laws, and Chapter 119,
Florida Statutes, permits USF to charge a special
service fee when the review of such documents require
extensive IT and clerical review, as is the case here.
Courts additionally have “recognized a records custodian’s duty to redact exempted portions of public records
before they are released.” Fla. Agency for Healthcare
Admin. v. Zuckerman Spaeder, LLP, 221 So. 3d at 1264
(“Further, decisions of this Court and the language of
§ 119.07(0, Florida Statutes, dictate that Zuckerman
should be required to pay for the cost of searching, review, and redaction of exempted information prior to
production”) (emphasis added).
8. As to reasonableness of hourly rates for reviewing documents, $35.00 per hour has been found by
at least one Florida court to be a reasonable rate for
the “redaction of exempt material when special expertise is required for redaction.” Lang v. Reedy Creek Improvement Dist., Case No. CJ-5546 (Orange Cty. Cir. Ct.
1995). Here, USF charged DeBose a considerably lower
hourly rate of $19.73. In fact, USF has not included
Mohn’s benefits in its hourly rate calculation, despite
the fact that, in calculating the special service charge
for responding to extensive public records requests,
agencies may include the cost of benefits in the labor
calculation. See Colby, 976 So. 2d at 37 (“[w]e approve
the County’s formula that includes both an employee’s

R.A. 102
salary and his or her benefits when calculating the labor costs to be included in the special service charge
authorized by that statute”).
9. In considering counsel’s arguments and submissions, it appears to the Court that the majority of
DeBose’s arguments regarding the reasonableness of
USF’s charges focus on USF’s public records review
and production policies and procedures and the manner in which USF has applied these policies and procedures to her requests. [10/09/18 Evidentiary Hearing
Transcript, Solis 58:1-2] For instance, DeBose complained of the inefficient manner in which USF handled her requests by going through IT, rather than by
reaching out to each of the individual custodians and
requesting them to perform their own searches; criticized USF for failing to use certain redaction software
which, in her own opinion (as she failed to present any
expert opinion testimony on this issue), would have expedited the review process thereby reducing the cost of
Mohn’s manual review and redaction time; challenged
USF’s manual review and redaction procedure maintaining (without any evidentiary support) that it was
unlikely that confidential or exempt information would
be included in emails thereby =Icing a thorough manual review unnecessary and the cost for same unreasonable; and argued that she, even after having left the
employment of USF, should have been allowed to “preview” her emails to reduce or eliminate Mohn’s review
and redaction time claimed to be necessary by USF.
10. These arguments are similar to the types of
arguments made by the petitioner in Morris Publ’g

R.A. 103
Grp., LLC v. State of Fla., 154 So. 3d 528 (Fla. 1st DCA
2015). The issue before the court in Morris, was
whether the application of a public records review policy to the facts of the case amounted to an unlawful
delay and denial of access. 154 So. 3d at 533. The Morris court observed that this “application” theory previously had been recognized by the First District Court
of Appeal in Johnson v. Jaris, 74 So. 3d 168, 171 (Fla.
1st DCA 2011), and its “inquiry centers on whether Me
application of the policy resulted in an unjustified delay that amounted to an unlawful refusal to comply
with chapter 119.” Id. In Morris, the petitioner argued
that the respondent’s public records review policy was
“combative, inefficient, unduly expensive, and prolonged, which made it virtually impossible” to get access to the requested documents in a reasonable time.
Ultimately, the First District Court of Appeal agreed
with the trial court that the respondent’s public records review policy was facially reasonable and ruled
that the respondent had no legal duty to make its public review policies more economically efficient and
faster for the petitioner. Id at 535.
11. It likewise appears that DeBose is contending that USF’s application of its public records review
policies and procedures to the facts in this case is creating unreasonably high charges for the documents requested and these unreasonably high charges are
tantamount to a denial of access. As did the court in
Morris, this Court too declines, in die absence of clear
legislative intent or case law requiring USF to be more
efficient in the manner in which it reviews its public

R.A. 104
records, to conclude that USF has a duty to do so. No
evidence was presented that USF has abused its policies and procedures or has been arbitrary in their application. USF has adequately explained its charges
and presented competent, substantial evidence to support the number of emails identified as being responsive to each of DeBose’s PRR’s at issue in this case.
Absent a clear duty, the Court concludes that USF’s review policies and procedures are reasonable in their
application to the facts of this case.
Summary of Conclusions
12. Based on the competent substantial evidence
presented in this case, the Court concludes as follows:
a. USF’s policies and procedures regarding the manner in which it uses IT to perform searches for public records and it
manually reviews public records for exemptions and manually redacts exempt information are both facially reasonable and
reasonable in their application to the facts in
this case;
b. USF has exercised these policies and
procedures consistently and uniformly and
has handled DeBose’s PRR’s at issue in the
same manner as it has handled others;
c. the manner in which USF determines
whether a search will require extensive use of
IT resources, file retrieval, queries, etc. is reasonable;

R.A. 105
d. the manner in which USF determines
whether a search will require extensive clerical and/or supervisory labor is reasonable;
e. the number of emails reflected in each
of the charge documents at issue – Charge
Document #1, Charge Document #2, Charge
Document #3, and Charge Document #4 – is
reasonable;
f. the manner in which USF calculates
the IT cost for a public records request is reasonable and the IT costs reflected in Charge
Document #1, Charge Document #2, Charge
Document #3, and Charge Document #4 are
reasonable;
g. the manner in which USF calculates
the labor cost involved for a public records request is reasonable and the labor costs reflected in Charge Document #1, Charge
Document #2, Charge Document #3, and
Charge Document #4 are reasonable; and
h. the total estimated costs of duplication, processing, labor, and production reflected in Charge Document #1, Charge
Document #2, Charge Document #3, and
Charge Document #4 are reasonable.
13. Accordingly, for the reasons articulated
above, DeBose’s Second Amended Writ is DENIED, in
part, as to DeBose’s public records requests numbers
five through 14, and 21 and otherwise identified in this
Order as the August 12, 2015, PRR; the August 16,
2015, PRR; and the August 31, 2015, PRR.

R.A. 106
DONE AND ORDERED on January 11, 2019
Electronically Conformed
1/11/2019
Elizabeth G. Rice
ELIZABETH G. RICE
Circuit Court Judge
[Service Notice Omitted]

EXHIBIT H
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff,

CASE NO.: 15-CA-005663
DIVISION: C

vs.
UNIVERSITY OF
SOUTH FLORIDA
BOARD OF TRUSTEES,
Defendant.

/

ORDER DENYING PLAINTIFF’S
MOTION FOR RECONSIDERATION
THIS CASE came before the Court without hearing on the Motion for Reconsideration filed on January

R.A. 107
19, 2019 (“Motion”), by the plaintiff/petitioner, ANGELA DEBOSE. The Court having considered the Motion, together with the applicable portions of the court
file, finds that (1) no intervening change in controlling
law has occurred since the Court’s ruling that is the
subject of the Motion; (2) no new evidence has become
available to Plaintiff since the Court’s ruling that is the
subject of the Motion; (3) no present need to correct
clear error or prevent manifest injustice exists; and
(4) the Motion otherwise fails to set forth facts or law
of a strongly convincing nature to induce the Court to
reverse its prior decision. Accordingly it is ORDERED
as follows:
1. The Motion is DENIED. See Spivey v. Teen
Challenge of Fla., Inc., 122 So. 3d 986, 991 (Fla. 1st
DCA 2013) (concluding trial court’s decision to deny
the motion for reconsideration without hearing was
proper). See also SEC v. Seahawk Deep Ocean Tech.,
Inc., 74 F. Supp. 2d 1188, 1192 (M.D. Fla. 1999).
DONE AND ORDERED:

January 31 2019

Electronically Conformed 1/31/2019
Elizabeth G. Rice
ELIZABETH G. RICE
Circuit Court Judge
[Service Notice Omitted]

.

R.A. 108
EXHIBIT I
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Petitioner,
v.
UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES; et al.,
Respondents.
/

CASE NO.: 15-CA-5663
Division: C

ORDER DENYING PETITIONER’S
MOTION FOR AN ORDER TO
UNREDACT THE COURT FILE AND
SECOND REQUEST FOR THE PRESIDING
JUDGE TO IMMEDIATELY STEP ASIDE
THIS MATTER is before the Court on Petitioner’s
“Motion for an Order to Unredact the Court File and
Second Request for the Presiding Judge to Immediately Step Aside,” filed August 17, 2018. In her Motion,
Petitioner alleges that court records in this matter
have been redacted. Petitioner alleges that she is not
able to access all court documents in this matter. Petitioner then accuses this Court of having requested redaction of court files in the three cases presently before
this Court (15-CA-5663; 17-CA-1652; 17-CA-2114). Petitioner acknowledges that, as a pro se litigant, she
must access the court files and related documents via

R.A. 109
the Clerk’s HOVER system. Upon inquiry, the Court
notes that the HOVER system has two avenues through
which documents can be viewed. In reviewing the main
webpage for HOVER (https://hover.hillsclerk.com), the
Court notes that self-represented litigants (pro se) are
directed to click a link entitled “Registration Process.”
The explanation box next to this link provides as follows:
A Self-Represented Litigant (Pro Se) can
view the name index, progress docket and
un-redacted images on cases in which they
appear pro-se, unless they have been made
confidential by court rule or order. The SelfRepresented Litigant (Pro Se) role also allows
access to non-confidential/sealed name indexes, progress dockets and redacted images
for cases in which the viewer is not a selfrepresented litigant on the case. (emphasis
added)
In contrast, a general member of the public, who is not
associated with a case as a pro se litigant, can view
court records using the “Anonymous” link. To do so,
they click on the “Court Records Search” link. ‘The explanatory box next to that link provides as follows:
An anonymous user may view non-confidential/sealed name indexes, progress dockets
and redacted images for cases except Family
Law, Probate and Juvenile cases. (emphasis
added)
Upon inquiry with the Clerk’s Office, this Court
notes that a critical difference exists between the two

R.A. 110
viewing options notated above. When a pro se litigant
registers with their case on HOVER, they will indeed
be able to see the entire unredacted court file, unless a
document has been specifically redacted or made confidential by court order or rule. ‘This is not true where
the “anonymous” view is utilized. In that case, when an
anonymous user wishes to see a court document and
they click on the link to view that document in
HOVER, a request is sent to the Clerk’s Office indicating that an anonymous user wishes to view that particular document. The Clerk’s Office then reviews
that particular document to determine whether it is
confidential or otherwise protected from general public view. If not, the document will then become viewable
(this is not an instantaneous process, as a human being
physically reviews the document).
Based on Petitioner’s Motion, it is unclear to this
Court whether Petitioner is in fact properly utilizing
the HOVER system. Despite Petitioner’s unfounded
accusation otherwise, this Court has never ordered
that any document in this matter, or document in Petitioner’s other cases before this Court, be redacted.
Nor does the Court have control over the Clerk’s process for redacting or unredacting documents that appear on the general public access portal of HOVER.
Thus, if Petitioner is properly utilizing the HOVER
system and has completed the registration process to
be associated with the three cases in which she is a pro
se litigant, she should be able to view the full court record in each of those cases. Again, the Court has
never ordered any document in this matter be

R.A. 111
redacted, and the Court has never had any ex
parte communication with any attorney in any
of Petitioner’s three cases pending before the
Court. To the extent Petitioner still has difficulty in
viewing court documents on HOVER, the Court again
directs her to seek the assistance of the Clerk’s Office.
With regard to Petitioner’s request for the undersigned to “step aside,” such request is not couched in
any particular Rule of Civil Procedure and is not legally cognizable.
Accordingly it is ORDERED as follows:
1.

Petitioner’s Motion is DENIED.

DONE AND ORDERED: August 24 2018
Electronically Conformed 8/24/2018
Elizabeth G. Rice
ELIZABETH G. RICE
Circuit Court Judge
[Service Notice Omitted]

R.A. 112
EXHIBIT J
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff/Petitioner,

CASE NO.:
15-CA-005663

v.
USF BOARD OF TRUSTEES,
USF ACADEMIC AFFAIRS
OF USF, STUDENT
SUCCESS OF USF,
and PAUL DOSAL,
Defendants/Respondents.

/

ORDER DENYING PLAINTIFF’S
MOTION FOR SANCTIONS
[AND OVERULING IN PART/SUSTAINING
IN PART DEFENDANTS OBJECTIONS]
THIS CAUSE came on for hearing before the
Court on July 26, 2018 on plaintiff ’s Motion for Sanctions and Default Judgment and Memorandum in Support “Motion for Sanctions”). The Court has reviewed
the file, heard argument and is otherwise advised in
the premises, it is hereby ORDERED THAT:

R.A. 113
A.

Plaintiff ’s motion for sanctions is DENIED.

B. This Court made the following rulings regarding instructions not to answer made during the April
20, 2018 deposition of Ralph Wilcox “Wilcox”):
1.

Question: 19:18, Objection: 19:19-20 – Overruled;

2.

Question: 19:22, Objection: 19:23 – Overruled;

3.

Question: 19-20:25,1, Objection: 20:2 –
Overruled;

4.

Question: 20:4-6, Objection: 20:7 – Overruled;

5.

Question: 20:9-10, Objection: 20:11 – Overruled;

6.

Question: 20:13-14, Objection: 20:15 – Overruled;

7.

Question: 20:23-25, Objection: 21:1-2 –
Overruled;

8.

Question: 21:4-7, Objection: 21:8 – Overruled;

9.

Question: 22:7-8, Objection: 22:9-10 – Overruled;

10.

Question: 22-23:20-25, 1-8, Objection: 23:910 – Sustained;

11.

Question: 23:12, Objection: 23:13 – Sustained;

R.A. 114
12.

Question: 23:15, Objection: 23:16 – Sustained;

13.

Question: 23:18, Objection: 23:19 – Overruled;

14.

Question: 23:21, Objection: 23:22 – Overruled;

15.

Question: 24:21, Objection: 24:22 – Sustained;

16.

Question: 24:24, Objection: 25:1 – Sustained;

17.

Question: 25:3-5, Objection: 25:6 – Sustained;

18.

Question: 25-26: 18-26, 1-14, Objection:
26:15-16 – Sustained;

19.

Question: 27:18, Objection: 27:19-20 – Sustained;

20.

Question: 27:18, Objection: 27:20 – Sustained;

21.

Question: 27:25, Objection: 28:1 – Sustained;

22.

Question: 28: 3-11, Objection: 28:12 – Sustained;

23.

Question: 28:14-15, Objection: 28:16 – Sustained;

24.

Question: 28:18-24, Objection: 28:25 – Sustained;

25.

Question: 29:6-21, Objection: 29:22 – Sustained;

R.A. 115
26.

Question: 29-30:24-25, Objection: 30:1-2 –
Overruled;

27.

Question: 30:3-20, Objection: 30:21 – Overruled with respect to Paul Dosal, Sustained
with respect to Rolanda Lewis and Shruti
Kumar;

28.

Question: 30:23-24, Objection: 30:25 – Sustained;

29.

Question: 31:2-5, Objection: 31:6 – Overruled;

30.

Question: 31:8-10, Objection: 31:11 – Overruled;

31.

Question: 31:13-15, Objection: 31:16 – Sustained;

32.

Question: 31:23-25, Objection: 32:1 – Sustained;

33.

Question: 32:10-11, Objection: 32:12-13 –
Sustained;

34.

Question: 32:14-15, Objection: 32:16 – Sustained;

35.

Question: 32:18-21, Objection: 32:22 – Sustained;

36.

Question: 33:3-4, Objection: 33:5 – Sustained;

37.

Question: 33:7-8, Objection: 33:9 – Sustained;

38.

Question: 33:11-15, Objection: 33:16 – Overruled;

R.A. 116
39.

Question: 33:18, Objection: 33:19 – Overruled;

40.

Question: 34:9-10, Objection: 34:11 – Sustained;

41.

Question: 35-36:25, 1, Objection: 35:2 –
Overruled;

42.

Question: 35:11-12, Objection: 35:13 – Sustained;

43.

Question: 35:15-17, Objection: 35:18 – Overruled;

44.

Question: 35:20-22, Objection: 35:23 – Sustained;

45.

Question: 36:10-12, Objection: 36:13-14 –
Sustained;

46.

Question: 36:16-17, Objection: 36:18 – Sustained;

47.

Question: 36-37:20-25, 1, Objection: 37:2 –
Sustained;

48.

Question: 37:4-20, Objection: 37:21 – Overruled;

49.

Question: 37:23-24, Objection: 37:25 – Sustained;

50.

Question: 38:2-3, Objection: 38:4 – Sustained;

51.

Question: 38-39:22-25, 1, Objection: 39:2 –
Sustained;

52.

Question: 39-40:18-25, 1-5, Objection: 40:6 –
Overruled;

R.A. 117
53.

Question: 40:8-10: Objection: 40:11 – Sustained;

54.

Question: 40:13-14, Objection: 40:15 – Sustained;

55.

Question: 40:17-18, Objection: 40:19 – Sustained;

56.

Question: 40:21, Objection: 22 – Sustained;

57.

Question: 40:24, Objection: 40:25 – Sustained;

58.

Question: 41:9-13, Objection: 41:15 – Sustained;

59.

Question: 41:17-19, Objection: 41:20 – Sustained;

60.

Question: 41-42:22-25, 1, Objection: 42:2 –
Sustained;

61.

Question: 42:6-8, Objection: 42:9 – Sustained;

62.

Question: 42:11-18, Objection: 42:19 – Sustained;

63.

Question: 42:21-23, Objection: 42:25 – Sustained;

64.

Question: 43:2-3, Objection: 43:4 – Sustained;

65.

Question: 43:6, Objection: 43:7 – Sustained;

66.

Question: 44:3-5, Objection: 44:6 – Sustained;

R.A. 118
67.

Question: 44:8-11, Objection: 44:12 – Overruled;

68.

Question: 44:14, Objection: 44:15 – Sustained;

69.

Question: 44:22, Objection: 44:24 – Sustained and overruled in part, to the extent
that “notice” is unclear;

70.

Question: 45:1-2, Objection: 45:3 – Sustained;

71.

Question: 45:17-18, Objection: 45:19 – Sustained;

72.

Question: 45:21-22, Objection: 45:23 – Sustained;

73.

Question: 45-46: 25, 1, Objection: 46:2 – Sustained;

74.

Question: 46:4-5, Objection: 46:6 – Sustained;

75.

Question: 46-47:8-25, 1-5, Objection: 47:6 –
Sustained;

76.

Question: 47:8-10, Objection: 47:11 – Sustained;

77.

Question: 47:13-15, Objection: 47:16 – Sustained;

78.

Question: 47:18-21, Objection: 47:22 – Sustained;

79.

Question: 47:24, Objection: 47:25 – Sustained;

R.A. 119
80.

Question: 48:2-5, Objection: 48:6 – Sustained;

81.

Question: 49:9-11, Objection: 49:12 – Sustained;

82.

Question: 49:14-15, Objection: 49:16 – Sustained;

83.

Question: 49:18-20, Objection: 49:21 – Sustained;

84.

Question: 49:23, Objection: 49:24 – Sustained;

85.

Question: 50:14-23, Objection: 50:24 – Sustained;

86.

Question: 51:1-6, Objection: 51:7 – Sustained;

87.

Question: 51:9-11, Objection: 51:12 – Overruled;

88.

Question: 51:14-15, Objection: 51:16 – Sustained;

89.

Question: 53:17-20, Objection: 53:21-22 –
Sustained;

90.

Question: 53-54: 24-25, 1, Objection: 54:2-3
– Sustained;

91.

Question: 54:5-7, Objection: 54:8-9 – Sustained without prejudice;

92.

Question: 54: 23-25, Objection: 55:1 – Sustained;

93.

Question: 55:3-5, Objection: 55:6 – Sustained;

R.A. 120
94.

Question: 55:8-9, Objection: 55:10 – Sustained;

95.

Question: 55:12-13, Objection: 55:14 – Sustained;

96.

Question: 55:16-18, Objection: 55:19 – Sustained;

97.

Question: 55:24-25, Objection: 56:1 – Sustained;

98.

Question: 56:3-4, Objection: 56:5 – Sustained;

99.

Question: 56:7-17, Objection: 56:18 – Sustained;

100.

Question: 56:20-23, Objection: 56:24 – Sustained;

101.

Question: 57:1-2, Objection: 57:3 – Sustained;

102.

Question: 57:5-7, Objection: 57:8 – Sustained;

103.

Question: 57:10, Objection: 57:11 – Sustained;

104.

Question: 57:13, Objection: 57:14 – Sustained;

105.

Question: 57:16-17, Objection: 57:18 – Sustained;

106.

Question: 57:20, Objection: 57:21 – Sustained;

107.

Question: 57-58:23-25,1, Objection: 58:2 –
Sustained;

R.A. 121
108.

Question: 58:4-5, Objection: 58:6 – Sustained without prejudice;

109.

Question: 58:18, Objection: 58:19 – Sustained;

110.

Question: 58: 21-25, Objection: 59:1 – Overruled;

111.

Question: 59:3, Objection: 59:4 – Overruled;

112.

Question: 59:14, Objection: 59:15 – Overruled;

113.

Question: 59:17-20, Objection: 59:21 – Overruled;

114.

Question: 60:8, Objection: 60:9-10 – Overruled;

115.

Question: 60:12-14, Objection: 60:15 – Overruled;

116.

Question: 60:17-18, Objection: 60:19 – Sustained without prejudice;

117.

Question: 60:21-24, Objection: 60:25 – Overruled;

118.

Question: 61:2, Objection: 61:3 – Overruled;

119.

Question: 61:5-17, Objection: 61:18 – Overruled;

120.

Question: 61:20-21, Objection: 61:22 – Sustained;

121.

Question: 61-62:24-25, 1, Objection: 62:2 –
Sustained without prejudice;

R.A. 122
122.

Question: 62:4-5, Objection: 62:6 – Sustained without prejudice;

123.

Question: 62:8, Objection: 63:9 – Sustained
without prejudice;

124.

Question: 62:11, Objection: 62:12 – Sustained;

125.

Question: 62:14, Objection: 62:15 – Sustained;

126.

Question: 62:17, Objection: 62:18 – Sustained;

127.

Question: 62:20, Objection: 62:21 – Sustained;

128.

Question: 62:23-25, Objection: 63:1 – Sustained;

129.

Question: 63:3-5, Objection: 63:6 – Overruled;

130.

Question: 63:8-10, Objection: 63:11-13 –
Overruled;

131.

Question: 63-64:14-23, 1-17, Objection:
64:18-19 – Overruled;

132.

Question: 64-65: 25, 1-7, Objection: 65:8 –
Sustained;

133.

Question: 65-66: 25, 1-9, Objection: 66:10-12
– Sustained;

134.

Question: 66:18-21, Objection: 66:22 – Sustained;

135.

Question: 66:24-25, Objection: 67:1 – Sustained;

R.A. 123
136.

Question: 67:3-5, Objection: 67:6 – Sustained without prejudice;

137.

Question: 67:14-15, Objection: 67:16-17 –
Sustained;

138.

Question: 67:19-22, Objection: 67:23 – Sustained; and

139.

Question: 68:1-4, Objection: 68:5 – Sustained without prejudice.

C. Plaintiff may depose Wilcox again and may
ask Wilcox the questions above, to which this Court
has overruled the objections or sustained the objections without prejudice to reformulating the question
as directed by the Court.
[D. The Court reserves jurisdiction of this matter
to enter additional orders regarding appropriate sanctions for defense counsel improper instructions to Wilcox not to answer the questions set forth hereinabove.]
DONE AND ORDERED in Chambers in Tampa,
Hillsborough County, Florida this August 16, 2018.
/s/ Elizabeth G. Rice
HONORABLE
ELIZABETH G. RICE
CIRCUIT COURT JUDGE
[Service Notice Omitted]

R.A. 124
EXHIBIT K
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff/Petitioner,
v.
USF BOARD OF TRUSTEES,
USF ACADEMIC AFFAIRS OF
USF, STUDENT SUCCESS OF
USF, and PAUL DOSAL,

CASE NO.
15-CA-005663
DIVISION: C

Defendants/Respondents. /
ORDER CONTINUING EVIDENTIARY HEARING
(Filed Aug. 16, 2018)
THIS CAUSE came on for hearing before the
Court on June 22, 2018 on Petitioner’s Amended Petition for Writ of Mandamus, Petitioner’s Motion to
Cancel Evidentiary Hearing and Petitioner’s Expedited Motion to Modify Order on Petitioner’s Motion for
Sanctions and Default Judgment. The Court having reviewed the file, having heard argument from both parties, and having otherwise been duly advised in the
premises, it is hereby ORDERED that: [as follows: /s/
EGR]

R.A. 125
1. The evidentiary hearing on the Amended Petition for Writ of Mandamus is continued until October
9, 2018[, /s/ EGR] and November 2, 2018.
2. The issues addressed in the Amended Petition
for Writ of Mandamus have been bifurcated as follows:
a. On October 9, 2018, commencing at 2:30
P.M., the Court will conduct an evidentiary hearing to
address the reasonableness of fees charged in response
to Petitioner’s Public Records Request Nos. 5-14 and
21, as delineated in Petitioner’s Amended List of Public
Records Requested but Not Provided by Respondent
University of South Florida Board of Trustees, filed on
April 9, 2018.
b. On November 2, 2018, commencing at
9:00 A.M., the Court will conduct an evidentiary hearing addressing the remaining disputed issues, specifically, Petitioner’s Public Records Request Nos. 1-4, 15-20,
and 22-23 as delineated in Petitioner’s Amended List
of Public Records Requested but Not Provided by Respondent University of South Florida Board of Trustees, filed on April 9, 2018.
3. All witness subpoenas are continued until November 2, 2018.
4. Petitioner and Respondent must file [and serve
/s/ EGR] their witness lists and exhibit lists for the October 9, 2018[, /s/ EGR] evidentiary hearing on or before September 10, 2018.
5. Petitioner and Respondent must file [and serve
/s/ EGR] their witness lists and exhibit lists for the

R.A. 126
November 2, 2018 evidentiary hearing on or before October 3, 2018.
6. Petitioner may depose Provost Ralph Wilcox
(“Provost Wilcox”) within 30 days of June 22, 2018: [as
follows: /s/ EGR]
a. Respondent must provide Petitioner with
5 possible dates for the deposition of Provost Wilcox[.]
b. During the deposition, Respondent shall
explain all objections to form.
c. Petitioner may inquire into the written
Public Records Requests Nos. 1-11 attached to her Second Amended Petition for Writ of Mandamus; any
other issues are outside of the scope of this litigation
and shall not be inquired into[.]
d. With respect to No. 1 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, the operative
time period is July of 2013 through May of 2015 and
all deposition questions should be confined to such
time period[. /s/ EGR]
e. With respect to No. 2 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
about the one email that DeBose requested on June 23,
2014 as described in “Public Records Request No. 1” in
Petitioner’s Composite Exhibit “B[. /s/ EGR].

R.A. 127
f. With respect to No. 3 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall not ask Provost Wilcox about documents he received from anyone other than Paul Dosal and shall
only inquire about the one email that DeBose requested on June 23, 2014 as described in “Public Records Request No. 1” in Petitioner’s Composite Exhibit
“B[. /s/ EGR]”
g. With respect to No. 4 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
regarding documents he received from Paul Dosal regarding the written requests attached to the Second
Amended Petition for Writ of Mandamus as Composite
Ex. “B.” [EGR]
h. With respect to No. 15 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge of
any emails in which Travis Thompson discusses “working with Paul Dosal to get ‘AD’ fired,” as reflected in
Public Records Request No. 3[. /s/ EGR]
i. With respect to No. 16 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida

R.A. 128
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge of
Caurie Waddell’s Exit Interview Form and related documents[. /s/ EGR]
j. With respect to No. 17 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge regarding any documents pertaining to Caurie Waddell’s
reasons for leaving USF, and all such questions must
relate to Public Records Request No. 5 attached to Petitioner’s Second Amended Petitioner for Writ of Mandamus[. /s/ EGR]
k. With respect to No. 18 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
about Caurie Waddell’s departure from USF, and all
such questions must relate to Public Records Request
No. 5 attached to Petitioner’s Second Amended Petitioner for Writ of Mandamus[. /s/ EGR]
l. With respect to No. 19 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
about any findings or reports transmitted from HR to
Paul Dosal and others concerning Caurie Waddell, and

R.A. 129
all such questions shall relate to Public Records Request No. 5 attached to Petitioner’s Second Amended
Petitioner for Writ of Mandamus[. /s/ EGR]
m. With respect to No. 20 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
about Public Records Request No. 6, and all such questions shall be limited to June 2014[. /s/ EGR]
n. With respect to No. 22 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge
relating to Public Records Request No. 9 attached to
Petitioner’s Second Amended Petition for Writ of Mandamus[.and /s/ EGR]
o. With respect to No. 23 in Petitioner’s
Amended List of Public Records Requested but Not
Provided by Respondent University of South Florida
Board of Trustees, filed on April 9, 2018, Petitioner
shall only inquire about Provost Wilcox’s knowledge of
Public Records Request No 11.
[7. The deadline for deposing Provost Ralph Wilcox may be extended by further order of this court for
good cause shown.]

R.A. 130
DONE AND ORDERED in Chambers at Tampa,
Hillsborough County, Florida, this [___ day of July,
2018. August 16, 2018. /s/ EGR]
/s/ Elizabeth G. Rice
HONORABLE
ELIZABETH G. RICE
CIRCUIT COURT JUDGE
[Service Notice Omitted]

R.A. 131
EXHIBIT L
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Petitioner,
v.
UNIVERSITY OF
SOUTH FLORIDA
BOARD OF TRUSTEES,

CASE NO.
15-CA-005663
DIVISION: C

Respondent.
ORDER ON PETITIONER’S MOTION FOR
SANCTIONS AND DEFAULT JUDGMENT
THIS CAUSE comes [came /s/ EGR] before this
Court [for hearing on June 11, 2018 /s/ EGR] abovereferenced Motion. Having reviewed the Motion, the
Response thereto, this Court finds [orders /s/ EGR] as
follows:
1. The Petitioner’s Motion for Sanctions is DEFERRED.
2. The Petitioner’s Motion for Default Judgment
is DENIED.
3. Dr. Ralph Wilcox will be re-deposed at Respondent’s expense, prior to June 22, 2018.

R.A. 132
4. Petitioner will notify the Court when the deposition is set on the Calendar.
5. The Honorable Elizabeth G. Rice will be on
hand [make herself available /s/ EGR] to immediately rule on any objections.
Based on the foregoing, it is hereby, [/s/ EGR]
ORDERED AND ADJUDGED that the Motion for
Default Judgment is DENIED. [/s/ EGR]
DONE AND ORDERED this [
2018. August 16, 2018 /s/ EGR].

day of June,

/s/ Elizabeth G. Rice
ELIZABETH G. RICE
CIRCUIT COURT JUDGE
[Service Notice Omitted]

R.A. 133
EXHIBIT M
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff,
vs.

CASE NO.
15-CA-005663

UNIVERSITY OF SOUTH
FLORIDA BOARD OF
TRUSTEES, et al.,
Defendant(s).

DIVISION: C
/

ORDER DENYING PLAINTIFF’S
MOTION FOR RECONSIDERATION
THIS CASE came before the Court without hearing on Plaintiff ’s Motion for Reconsideration filed on
July 3, 2018 (“Motion”). The Court having considered
the Motion, together with the applicable portions of the
court file, finds that (1) no intervening change in controlling law has occurred since the Court’s ruling that
is the subject of the Motion; (2) no new evidence has
become available to Plaintiff since the Court’s ruling
that is the subject of the Motion; (3) no present need to
correct clear error or prevent manifest injustice exists;
and (4) the Motion otherwise fails to set forth facts or
law of a strongly convincing nature to induce the Court
to reverse its prior decision. Accordingly it is ORDERED as follows:

R.A. 134
1. The Motion is DENIED. See Spivey v. Teen
Challenge of Fla., Inc., 122 So. 3d 986, 991 (Fla. 1st
DCA 2013) (concluding trial court’s decision to deny
the motion for reconsideration without hearing was
proper). See also SEC v. Seahawk Deep Ocean Tech.,
Inc., 74 F. Supp. 2d 1188, 1192 (M.D.Fla.1999).
DONE AND ORDERED: July 20, 2018.
/s/ Elizabeth G. Rice
ELIZABETH G. RICE
CIRCUIT COURT JUDGE
[Service Notice Omitted]

R.A. 135
EXHIBIT N
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff/Petitioner,
v.
USF BOARD OF TRUSTEES,
USF ACADEMIC AFFAIRS
OF USF, STUDENT
SUCCESS OF USF,
and PAUL DOSAL,

CASE NO.
15-CA-005663
DIVISION: C

Defendants/Respondents. /
ORDER DENYING IN PART AND GRANTING
IN PART PETITIONER’S MOTION TO COMPEL
THIS MATTER is before the Court on Petitioner’s Motion to Compel and Memorandum of
Law in Support, filed February 14, 2018. Having considered the motion, the Court FINDS that the motion
to compel shall be DENIED in part and GRANTED
in part.
In her complaint, Petitioner seeks documents under Chapter 119, Florida Statutes, that are the subject
of the Amended Petition for Writ of Mandamus. By
compelling discovery of the same documents through a
Request for Production or via a Subpoena, the Court

R.A. 136
has determined that the immediate action would be
undermined if Petitioner can otherwise obtain the documents via discovery. Therefore, the Court finds that
Petitioner’s Motion to Compel Discovery is DENIED.
Additionally, Petitioner seeks to compel the depositions of Judy Genshaft, Ralph Wilcox, and Paul
Dosal. The motion to compel the deposition of Dr. Judy
Genshaft is DENIED without prejudice, pending a
showing by Petitioner that Dr. Genshaft has knowledge of facts relevant to the issues. The motion to compel is GRANTED as to Dr. Wilcox. Dr. Wilcox may be
deposed for two (2) hours upon thirty (30) days’ notice.
Petitioner has withdrawn her request to depose Dr.
Dosal, but may depose him for good cause shown.
IT IS THEREFORE ORDERED that for the
reasons stated above, the Petitioner’s Motion to Compel Memorandum of Law is DENIED in part and
GRANTED in part.
IT IS SO ORDERED. [on May 14, 2018]
/s/ Elizabeth G. Rice
HONORABLE
ELIZABETH G. RICE
CIRCUIT COURT JUDGE
[Service Notice Omitted]

R.A. 137
EXHIBIT O
Order Continuing Evidentiary Hearing
On Amended Petition for Writ of Mandamus
NOTE: Signed Order Not Served through JAWS.
Order is redacted in the Court file.

R.A. 138
EXHIBIT P
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Plaintiff/Petitioner,
v.
USF BOARD OF TRUSTEES,
USF ACADEMIC AFFAIRS
OF USF, STUDENT
SUCCESS OF USF,
and PAUL DOSAL,

CASE NO.
15-CA-005663
DIVISION: C

Defendants/Respondents. /
ORDER ON RESPONDENT’S EMERGENCY
MOTION FOR PROTECTIVE ORDER
AND TO QUASH PETITIONER’S
SUBPOENAS FOR EVIDENTIARY HEARING
THIS CAUSE came on for hearing before the Court
on March 2, 2018 on Respondent’s Emergency Motion
for Protective Order and to Quash Petitioner’s Subpoenas for Evidentiary Hearing. For the reasons stated in
open court, Respondent’s motion is GRANTED IN
PART and DENIED IN PART without prejudice as
follows: (1) the motion is GRANTED with respect to
Judy Genshaft; and (2) the motion is DENIED with
respect to Ralph Wilcox;

R.A. 139
DONE AND ORDERED in Chambers at Tampa,
Hillsborough County, Florida this is 15 day of March,
2018.
Electronically Conformed 3/15/2018
HONORABLE
ELIZABETH G. RICE
CIRCUIT COURT JUDGE
[Service Notice Omitted]

R.A. 140
EXHIBIT Q
IN THE CIRCUIT COURT OF THE
THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR
HILLSBOROUGH COUNTY, FLORIDA
CIVIL DIVISION
ANGELA DEBOSE,
Petitioner/Plaintiff,
v.

CASE NO.
15-CA-005663

UNIVERSITY OF
SOUTH FLORIDA
BOARD OF TRUSTEES,
Defendant(s).

DIVISION: C
/

ORDER [DENYING PLAINTIFFS
MOTION FOR SUMMARY JUDGMENT /s/ EGR]
This cause came up for hearing before the Court
pursuant to the motion for summary judgment filed
by pro se Petitioner, Angela DeBose (“DeBose or
“Plaintiff ”), and response in opposition filed by Respondent, University of South Florida Board of Trustees (“USFBOT” or “Defendant”). For reasons set forth
or announced orally in open court, the Summary
Judgment Motion is DENIED.
It is further ORDERED that:
(1) the Petitioner will file in 15 days a list of the
public records she requested but did not receive;

R.A. 141
(2) the Court will schedule an Evidentiary Hearing in 90 days[, subject to the court’s calendar.
/s/ EGR]
DONE and ORDERED in Chambers at Tampa,
Hillsborough County, Florida, this 9th day of February,
2018.
/s/ Elizabeth G. Rice
ELIZABETH G. RICE
CIRCUIT COURT JUDGE
[Service Notice Omitted]

R.A. 142
Supreme Court of Florida
THURSDAY, MAY 13, 2021
CASE NO.: SC21-70
Lower Tribunal No(s).:
2D20-594; 292015CA005663A001HC
ANGELA DEBOSE

Petitioner(s)

vs. UNIVERSITY OF
SOUTH FLORIDA,
BOARD OF TRUSTEES
Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an unelaborated decision from a
district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that
is not a case pending review in, or reversed or quashed
by, this Court. See Wheeler v. State, 296 So. 3d 895 (Fla.
2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State, 926 So. 2d 1262 (Fla. 2006); Gandy v. State,
846 So. 2d 1141 (Fla. 2003); Stallworth v. Moore, 827
So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 So.
2d 1279 (Fla. 1987); Dodi Publ’g Co. v. Editorial Am.
S.A., 385 So. 2d 1369 (Fla. 1980); Jenkins v. State, 385
So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be
entertained by the Court.

R.A. 143
A True Copy
Test:
/s/ John A. Tomasino
John A. Tomasino
Clerk, Supreme Court
td
[Service Notice Omitted]

[SEAL]

